<html>
<title> - [H.A.S.C. No. 112-140]DEPARTMENT OF THE AIR FORCE AIRCRAFT FORCE STRUCTURE REDUCTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-140]
 
                      DEPARTMENT OF THE AIR FORCE

                  AIRCRAFT FORCE STRUCTURE REDUCTIONS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 12, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
75-151                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               LARRY KISSELL, North Carolina
VICKY HARTZLER, Missouri             BILL OWENS, New York
BOBBY SCHILLING, Illinois            TIM RYAN, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
TIM GRIFFIN, Arkansas                JACKIE SPEIER, California
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                 Heath Bope, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                    Nicholas Rodman, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, July 12, 2012, Department of the Air Force Aircraft 
  Force Structure Reductions.....................................     1

Appendix:

Thursday, July 12, 2012..........................................    39
                              ----------                              

                        THURSDAY, JULY 12, 2012
    DEPARTMENT OF THE AIR FORCE AIRCRAFT FORCE STRUCTURE REDUCTIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Branstad, Governor Terry, State of Iowa, and Co-Chairman of the 
  Council on Governors...........................................     5
Lowenberg, Maj Gen Timothy J., USAF, Adjutant General, State of 
  Washington Military Department.................................    18
Miller, Lt Gen Christopher D., USAF, Deputy Chief of Staff for 
  Strategic Plans and Programs, A8, U.S. Department of the Air 
  Force..........................................................    16

                                APPENDIX

Prepared Statements:

    Branstad, Governor Terry.....................................    45
    Forbes, Hon. J. Randy........................................    43
    Lowenberg, Maj Gen Timothy J.................................    85
    Miller, Lt Gen Christopher D.................................    65

Documents Submitted for the Record:

    Letter from Governors Branstad and Gregoire to Secretary 
      Panetta, April 27, 2012....................................   161

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   165
    Mr. Loebsack.................................................   166
    Mr. Palazzo..................................................   167

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................   171
    Mr. Palazzo..................................................   178
    Mrs. Roby....................................................   178
    DEPARTMENT OF THE AIR FORCE AIRCRAFT FORCE STRUCTURE REDUCTIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, July 12, 2012.
    The subcommittee met, pursuant to call, at 10:59 a.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. I want to welcome all of our members, and 
Governor Branstad, thank you for being here, and our other 
distinguished panel witnesses to today's hearing that will 
focus on the readiness impact associated with proposed 
reductions in the United States Air Force inventory.
    In this year's budget request, the President proposed 
significant reductions in the United States Air Force aviation 
inventory, and proposed to retire 227 aircraft in fiscal year 
2013. In supporting this request, General Schwartz, the Chief 
of Staff of the Air Force, indicated that the Air Force will be 
a smaller, but superb force that maintains our ability, our 
flexibility and readiness to engage a full range of 
contingencies and threats. Using General Schwartz's rationale, 
a smaller force would be capable of supporting the entirety of 
Air Force requirements around the globe.
    My friends, I do not share General Schwartz's assessments 
and optimism. The force structure proposed by the President in 
the fiscal year 2013 budget request is not supported by the 
requirements and was driven by a fiscally constrained budget. 
In fact, the Air Force has previously provided the strategic 
rationale and in public testimony supported a much larger force 
structure.
    If we adopt the budget request proposed by the President 
and embark on the road to reduce our force structure, we will 
make the United States less secure and embolden hostile nations 
to challenge the United States in areas that will not be to our 
advantage. In the end, the additional risk borne by our budget 
decisions of today could be paid in the loss of American lives.
    I opposed dropping off the force structure cliff of the 
Budget Control Act, and will actively oppose the debilitating 
impact associated with sequestration. As to the impact of the 
aviation force structure reductions to the active Guard and 
Reserve Components, I believe that it is incumbent on all the 
components, to include the Council of Governors, to have an 
active dialogue to discuss their needs and to develop a common 
understanding of the strategic implications associated with 
their various interests. It is only through a vigorous 
discussion of the Nation's interests that a clear path will be 
provided.
    As to the road ahead, it appears that there are certain 
force structure movements that can be agreed by all the 
parties. I would hope that these agreements could be quickly 
concluded. This would go a long way in relieving the indecision 
associated with many service members as to their roles in 
support of national defense. I hope that our hearing today will 
serve to foster this additional dialogue and best serve our 
Nation.
    Finally, I have heard that some of my colleagues have 
proposed an independent panel to assess the overall force 
structure requirements of the United States Air Force. Some 
critics of this proposal have indicated that the time 
associated with this independent assessment would significantly 
harm the Air Force and serve to exasperate future modernization 
efforts.
    While I would support this independent assessment, I 
believe that there are elements of the overall force structure 
that should move forward that have broad support, and would 
oppose an extensive freeze of the existing force structure 
while this assessment is ongoing. Additional clarity on the 
requirements that support the overall force structure has been 
lacking for many years and is clearly warranted.
    To better assess the overall United States Air Force 
aviation force structure, we have prepared two panels 
representing the United States Air Force and the Council of 
Governors. In the first panel, and representing the Council of 
Governors, I am pleased to introduce the first panel consisting 
of a single witness, the Honorable Terry Branstad, Governor of 
the State of Iowa.
    Governor Branstad, thank you for being here.
    I now would like to recognize the ranking member, Ms. 
Bordallo, for any remarks she may have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 43.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you, Mr. Chairman.
    And I want to welcome all of our witnesses this afternoon. 
In particular, thank you, Governor Branstad, for traveling to 
D.C. [District of Columbia].
    I also look forward to the testimony from General Miller 
and General Lowenberg in our next panel.
    We all recognize the difficult budget constraints that the 
Department of Defense faces. The President's budget for fiscal 
year 2013 is evidence of the difficult budget environment faced 
by our entire government. However, I think all members agree 
that we must have a sound defense strategy that drives 
resourcing and requirements over the next several years.
    Secretary Panetta and General Dempsey, with the blessing of 
the President, released the new strategic guidance in January, 
and it seems sound. But many of us on Capitol Hill were deeply 
concerned that the budget decisions did not match the strategy 
announced in January.
    Unfortunately, this mismatch was most evident in the Air 
Force's budget submission. In an era where we are refocusing 
our military on the Asia-Pacific region and must be ready to 
defend the homeland from a variety of threats, the cuts in the 
Air Force structure did not pass muster. As such, that is why 
this Congress and this committee took action to halt some of 
these actions.
    I applaud the efforts led by Congressman Loebsack and 
Congressman Hunter to restore the force structure cuts to the 
Air National Guard and restrict the retirement of aircraft that 
support National Guard mission requirements. Fifty-nine percent 
of all Air Force cuts impacted the National Guard. Air National 
Guard manpower was reduced by six times the per capita of the 
Active Duty Air Force. And most personnel cuts occurred in the 
first year instead of a several-year ramp. All these cuts seem 
aimed at continuing by another means the 2005 BRAC [Base 
Closure and Realignment] round and do not make sense in the 
long run for our national defense.
    I acknowledge the rationale that the Air Force put forward 
regarding these proposed cuts, but something was lacking in 
their analysis. There appears to have been no recognition of 
incorporation of Title 32 responsibilities onto their planning 
assumptions. Tactical aircraft such as the C-130 and the C-27J 
provide critical homeland defense capabilities to the 
governors, as well as the President.
    The Air Force's budget proposal would remove critical 
airlift that is postured to support the nine FEMA [Federal 
Emergency Management Agency] regions. For example, the C-27J 
aircraft provides a critical and unique capability to the 
warfighter and to our homeland defense. And again, I believe if 
Title 32 civil response and homeland defense requirements were 
taken into consideration, the decision to terminate this 
program would not have been made by senior leaders.
    So as such, I hope that our witnesses can comment on when 
we can expect the National Guard Bureau to take the lead in 
developing homeland defense requirements to fulfill Title 32 
missions. What can be done to better incorporate Title 32 
requirements in budget planning and programming with the DOD 
[Department of Defense]?
    Further, I cannot understand the rationale for the 
termination of the Global Hawk Block 30 Program. Again, the 
strategy did not match the budget realities. I cannot 
understand how we can refocus on the Asia-Pacific region, yet 
eliminate this aircraft that performed critical missions in the 
Asia-Pacific region during Operation Tomodachi, taking photos 
of the damaged Fukushima nuclear power plant.
    Yet, the solution to losing this capability is to extend U-
2 flights for the indefinite future. Why, when we are 
considering force structure cuts in the Air National Guard, 
should we keep flying a manned aircraft in the place of an 
unmanned aircraft?
    I am concerned that the Department of Defense did not 
appropriately utilize the Council of Governors, and that was a 
critical flaw in this process. I fear that the council was 
informed only after final budget decisions were made, instead 
of engaging the council early in the budget process.
    General Lowenberg aptly raises the findings in the court's 
Rendell v. Rumsfeld decision that ``no change in the branch, 
organization, or allotment of a National Guard unit located 
entirely within a State may be made without the approval of a 
governor.'' I believe that if the Council of Governors had been 
an informed partner during deliberations regarding the budget 
constraints the Air Force faced in fiscal year 2013, they could 
have reached mutually agreeable solutions.
    Again, I certainly appreciate the budget realities that 
face the Air Force. However, my main concern is the process 
used to develop the fiscal year 2013 budget which did not allow 
for thorough vetting of requirements with regard to Title 32 
missions and in the context of the new strategic guidance. I 
certainly hope that this hearing can outline ways in which we 
avoid this type of situation in the future.
    And again, I thank our chairman for holding a hearing on 
this important matter, and I look forward to our question and 
answer period.
    Mr. Forbes. Thank you, Madeleine, for those comments.
    And at this time, I would like to, as we previously 
discussed prior to the hearing, ask unanimous consent that it 
be made in order to depart from regular order so that Members 
may ask questions that follow train of thought from the 
preceding Member. I think this will provide a roundtable-type 
forum and will enhance the dialogue on these very important 
issues. So without objection, that is so ordered.
    Also, I would like to welcome our House colleagues joining 
us from off the subcommittee. Two great Iowans, we have Mr. 
Latham and Mr. Boswell, both here with us today.
    So Governor, you are well represented from Iowa.
    And Ms. Hochul are also here.
    With that, I ask unanimous consent that these Members be 
allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask questions.
    Is there any objection?
    Without objection, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes.
    Now, I would like to recognize Representative Loebsack for 
the purpose of an introduction.
    Mr. Loebsack. Thank you, Mr. Chairman.
    I would like to extend a very warm welcome to our Iowa 
Governor Terry Branstad. Governor Branstad has really been 
working very, very hard as co-chair of the Council of Governors 
to make sure that the governors' voices are heard in this 
debate.
    And I publicly want to thank you for all of your fantastic 
work on this, Governor. Having had many conversations with you 
on this issue, I know that the perspective that you are going 
to bring today to the table will be very beneficial to this 
committee.
    I am also very pleased that sitting directly behind the 
governor is Iowa's adjutant general, Major General Tim Orr. He 
is here with us today, and two of my colleagues, as was just 
mentioned, Congressman Boswell and Congressman Latham. It is 
really, really fantastic to have you here today.
    So Governor, once again welcome and thank you for being 
here.
    And I yield back, Mr. Chairman, at this time. Thank you.
    Mr. Forbes. Well, thank you, Dave.
    And Governor, it is now time to hear from you. We want you 
to know that--apologize, we may have some votes called and we 
may have to dance around. We know you have a hard stop. 
Anything that you want to give us on your opening statement, we 
want to hear. But also, please know that we are happy to put 
anything in the record you cannot get to. So we want to hear 
from you and now we turn it over to you.
    Governor, is your mike on there?

  STATEMENT OF GOVERNOR TERRY BRANSTAD, STATE OF IOWA, AND CO-
              CHAIRMAN OF THE COUNCIL ON GOVERNORS

    Governor Branstad. Thank you very much. Now, it is on. 
Chairman Forbes, Ranking Member Bordallo, distinguished members 
of the subcommittee, including our Congressmen from Iowa that 
have joined us, along with Congressman Loebsack, I want to 
thank you all for being here.
    My name is Terry Branstad. I am the Governor of the State 
of Iowa. I appear before you today on behalf of the National 
Governors Association or the NGA, and as co-chair of the 
Council of Governors or ``Council.'' Thank you for this 
opportunity to speak to you today regarding the U.S. Air 
Force's fiscal 2013 budget request and its disproportionate 
impact on the Air National Guard.
    I would like to begin by thanking this committee for its 
leadership and support for the Air National Guard. Thanks to 
your work and that of the Senate committee, our Air National 
Guard will continue to have access to the personnel, aircraft 
and resources necessary to fulfill the dual mission at home and 
abroad during fiscal year 2013. With your continued support, 
governors are working with the Department of Defense, or the 
DOD, to find solutions to the challenges facing our Nation's 
military forces.
    I am hopeful that we can find ways to fully leverage the 
operational strength and cost savings of the Air and Army 
National Guard as we move forward.
    Governors care deeply about this dual responsibility to 
support both the Federal missions and the homeland security 
requirements that our National Guard soldiers and airmen help 
fulfill every day.
    For my State, we have been deploying airmen overseas since 
the mid-1970s in support of no-fly missions and peacekeeping 
operations in Kosovo, the Sinai Peninsula, Kuwait, as well as 
Afghanistan and Iraq.
    Since 2000--since 9/11 more than 17,000 Iowa National Guard 
soldiers and airmen have been serving on Active Duty in support 
of our efforts overseas.
    As governor I truly understand the deep connection between 
my colleagues and those who serve their State and Nation. I 
also take very seriously the responsibilities I have to our 
returning veterans and to the families whose loved ones have 
made the ultimate sacrifice for our Nation.
    In Iowa, we have lost 78 service members to the War on 
Terror. The National Guard has effectively balanced both 
mission sets at the same time. Just last year, the Iowa 
National Guard deployed the second brigade combat team to 
Afghanistan in a full spectrum mission set, making it the 
largest deployment of Iowa National Guard soldiers and airmen 
since World War II.
    At the same time, we also responded to a historic Missouri 
River flood with approximately 1,000 National Guard service 
members, making this the longest duration emergency response 
operation in our State's history. This flood lasted from June 
until September.
    As commanders-in-chief, governors take very seriously the 
duties and responsibilities placed on the men and women of the 
National Guard. We appreciate the need to reorganize, 
restructure, and modernize the military to meet the new threats 
and economic realities.
    We also understand the need for cost effective means to 
achieve our goals. Governors across the country have made tough 
choices, but done so in a thoughtful way to leverage the most 
cost-effective resources available.
    In the State of Iowa, we continually look for innovative 
ways to deliver services and have sought ways to better 
leverage private sector strength through public-private 
partnerships. I know Iowans at entities like Alcoa, Rockwell 
Collins, and the Rock Island Arsenal stand ready to help the 
Pentagon meet the budget challenges through innovative 
solutions.
    The Guard is a cost-effective operational force that is 
critical to our national security and our ability to respond to 
domestic emergencies. The Air National Guard provides 35 
percent of the U.S. Air Force's capabilities for 6 percent of 
the budget.
    Therefore, when the Air Force proposed to impose 59 percent 
of the total aircraft budget reductions and about six times the 
personnel reductions on the Air Guard, nearly every governor 
signed a letter to Secretary Panetta, strongly opposing the Air 
Force's budget proposal.
    The council is a presidentially appointed, bipartisan group 
of 10 governors and senior Federal officials, including the 
Secretary of Defense, the Secretary of Homeland Security, and 
White House officials.
    The council provided an opportunity to discuss the 
governors' concerns with Secretary Panetta, Air Force Secretary 
Michael Donley, and Air Force Chief of Staff General Norton 
Schwartz on February 27th.
    At that time, I along with council co-chair, Governor Chris 
Gregoire from that State of Washington, relayed the governors' 
frustration and dismay at having read about these proposed cuts 
to Air Guard in the newspaper instead of being consulted.
    While we do not expect to be involved in the day-to-day 
operations of the Department of Defense, we were disappointed 
by the lack of communications with us on such an important 
decision impacting our Air National Guard.
    We also are concerned by the dramatic nature of the 
proposal and its failure to recognize the role and the 
importance of the Air National Guard in our State and the 
experience and cost effectiveness that the National Guard 
provides to the total force.
    Governors routinely rely on the National Guard to respond 
to emergencies. The National Guard has highly trained and 
readily accessibly personnel and equipment that provide 
credible--critical capabilities such as transportation, 
communications, and medical response.
    The proposed reductions of the Air National Guard would 
have stripped States of these capabilities and upended years of 
carefully crafted emergency response plans. I am now in my 18th 
year as governor. I served 16 and came back--and during that 
time the Iowa National Guard has always performed to the 
highest of standards under the most difficult of circumstances. 
I am very proud of our Guard and the great job that they have 
done.
    During the council meeting on February 27th, Secretary 
Panetta indicated that he understood our concerns and agreed to 
work with us to try to find a solution.
    Following that meeting, my adjutant general, or TAG, Major 
General Tim Orr, as well as Governor Gregoire's TAG [The 
Adjutant General], Major General Tim Lowenberg, both of whom 
are seated behind me, engaged in discussions with the Air Force 
to try to identify a better solution for fiscal year 2013.
    While there were several discussions in early or mid-March 
and we had many telephone conferences, significant differences 
remained with respect to the manpower reductions, fighter 
aircraft, and airlift needs.
    On March 19, Governor Gregoire and I spoke with Secretary 
Donley and General Schwartz regarding insufficient progress to 
address the governors' concerns.
    By letter that same day we encouraged them to consider cost 
neutral options for cross-leveling or reallocating programmed 
aircraft operations from the Active service to the Guard. 
Unfortunately, despite our outreach to the Air Force leadership 
and to Deputy Defense Secretary Carter, the negotiations did 
not resolve our key differences.
    On April 23, Secretary Panetta shared a letter with us that 
he had sent to the Congress in which he proposed to transfer 24 
C-130 aircraft from the Active service to the Air National 
Guard.
    While we appreciate the Secretary's recognition of the 
governors' need for greater airlift capacity, the proposal was 
previously presented by the Air Force and fell far short of 
addressing our concerns.
    As we had discussed with Secretary Donley and General 
Schwartz, this proposal failed to leverage the Guard's cost 
effectiveness to retain additional manpower, expertise, and 
fighter aircraft at a reduced cost to the tax payers.
    Thankfully this committee as well as the Senate Armed 
Services Committee has put forward legislation to preserve the 
Air National Guard manpower and aircraft at their current 
levels for another year.
    We appreciate that.
    This temporary freeze will provide opportunities to 
exchange views, information, and advice on State and Department 
of Defense requirements for future fiscal years.
    The council is working on principles in appropriate 
coordination points for an open channel of communication 
between States and the Department of Defense on matters 
impacting the National Guard and its dual mission at home and 
abroad.
    One item we have identified that contributed to this year's 
challenges with the Air Force was the Air Force's requirement 
that National Guard Bureau officials signed non-disclosure 
agreements on the budget process. Such a requirement creates an 
unnecessary restrictive process and fails to adequately include 
critical information from the States.
    The National Guard Bureau is statutorily required to serve 
as the channel of communications between the States and the 
President and the Secretary of Defense.
    Unnecessarily restricting the ability to share discreet but 
critical information with governors and their TAGs limits the 
flow of information and has resulted in disagreements that 
could have been largely avoided.
    This is just one item we hope to discuss with the 
Department of Defense during the upcoming council meeting which 
comes this weekend down in--at the governor's meeting.
    As you know, fiscal year 2014 budget proposals for the Air 
Force and the Army are already being developed and will soon be 
sent to the Secretary [of Defense] for his review. Without 
quick action to ensure communications with the States we may be 
faced with similar budget disagreement for the coming year.
    We are hopeful that the ongoing focus by Congress, and the 
Senate committee's proposed national commission on the 
structure of the Air Force will encourage the Department of 
Defense, the Air Force, and the Army to work with us as quickly 
as possible to establish a better, more collaborative process 
for fiscal years 2014 and 2015 budgets.
    So, on behalf of the Nation's governors, I thank you for 
your strong support for the National Guard. Your continued 
assistance and support will be helpful as governors work with 
the Department of Defense to craft solutions to the problems we 
share.
    We thank you for the opportunity to testify before you 
today, and I look forward to answering any questions you might 
have.
    Thank you very much.
    [The prepared statement of Governor Branstad can be found 
in the Appendix on page 45.]
    Mr. Forbes. Governor, we thank you and as we mentioned at 
the outset, you are well represented here by fellow Iowans. It 
shows their love for their State, but also their respect for 
you and we certainly share that respect, but we also appreciate 
the fact that you are here today on behalf of the Council of 
Governors and representing them.
    We wholeheartedly agree with you, these gag orders have 
just got to stop coming out of the Pentagon, because it serves 
no purpose not to be transparent and get this information out.
    I have three questions that I would like to get your 
insight on so we can get on the record.
    The first one is, on behalf of the Council of Governors, 
can you explain to us how the Council of Governors' alternative 
proposal to the Air Force's fiscal year 2013 budget request 
developed, and what in your mind are the key takeaways of how 
the council's alternative proposal better meets homeland and 
national security readiness requirements than the Air Force 
proposal.
    But second, there is a proposal as you know in the Senate 
to propose language that would effectively stop the transfer, 
divestment, or retirement of all Guard and Reserve aircraft, 
not only in fiscal year 2013, but also in previous fiscal years 
2010, 2011 and 2012. Could you address what you think that 
impact would be?
    And the final thing is do you think it would be fruitful 
for you to come back to the table with discussions with the Air 
Force as you were previously, and do you think we could have 
anything accomplished if we could effectuate that?
    Governor Branstad. Well, first of all, I wanted to thank 
General Orr and General Lowenberg. They put tremendous amount 
of time in this. We have had a lot of discussions.
    I think we all feel now we really had to go to the Hill on 
this issue. We were not able to make the progress we hoped to 
with the Pentagon and with the Air Force.
    It was not without a tremendous amount of effort. And after 
that meeting on the 27th, the Council of Governors, I can tell 
you that in fact Congressman Latham and I think General Orr 
rode the plane back and forth many days.
    They were just talking about that before the meeting here 
today, because General Orr and General Lowenberg spent a lot of 
time in here and we--and they put a lot of effort into offering 
a cost-effective alternative that met the budget guidelines but 
did not have the devastating impact on the Air National Guard.
    And this was not a perfect solution, and it obviously meant 
that we had to accept reductions that we, the governors, accept 
and understand. But we thought it was--made a lot more sense, 
because it is much more cost effective.
    As I mentioned in my testimony, the Guard does things in a 
much more cost-effective way. We also have a lot of experienced 
pilots in the Air National Guard, more experienced than the 
regular Air Force, frankly. And obviously they are part-time, 
and so the cost is much less.
    So we think the proposal that they made, made a lot of 
sense and basically the response back we got was this offer for 
these C-130s.
    Well, you know, I served during Vietnam. I was stationed at 
503rd Military Police Battalion at Fort Bragg. And we got 
deployed up here to guard the Pentagon and Arlington during one 
of the demonstrations here. We flew up on some of those C-130s 
and they were close to being obsolete in those days, and that 
was 1970.
    So, you know, these are planes that obviously--and there 
was no money provided for upgrading and maintenance of them as 
well. This really was, I thought, not something that really met 
the needs of the States.
    So I do not know if I have answered all of your questions, 
but I believe that we have some very capable people among--in 
all--and I would say General Orr and General Lowenberg took the 
lead on this, but they consulted with the other adjutant 
generals from representing all the other governors, all the 
other States and territories as well.
    And we just do not feel that we got the response we should 
have, and from the beginning we did not have the consultation 
that is supposed to be required as part of the creation of the 
Council of Governors.
    That consultation really did not occur in advance, and 
governors were quite disturbed that, you know, first we got the 
word that we are going to see this reduction in aircraft, and 
then it was considerable later we found there was also going to 
be a significant reduction in personnel.
    And both of those we got very after the fact and about the 
same time after this happened, then we had our Air Guard unit 
deployed to Afghanistan, 5 days after we got the notice of what 
is going to happen. That is certainly not good for morale.
    Mr. Forbes. Governor, thank you for that insight.
    Just one last part of that question if you could address; 
do you think it would be worthwhile, useful, profitable to come 
back to the table and sit down with the council and with the 
Air Force to see if there are some common ground areas that 
could be effectuated?
    Governor Branstad. Well, we are going to be meeting this 
weekend. And, again, we are concerned that, you know, it does 
not look like the Secretary of Defense is going to be able to 
attend that meeting. And, you know, we need to have top 
leadership from the Pentagon and from the Air Force represented 
there if we are going to be able to have fruitful discussions 
with them. We are--the governors stand ready and willing to do 
that.
    You also--one of the other aspects that you asked about was 
previous fiscal year budgets and freezing those in place as 
well without the changes.
    I guess our feeling is we do not think--if the governors 
agree to it. There are some of those changes that governors 
readily agree to. As long as the governor--the State that is 
affected by it, as long as the governor signs off and agrees on 
it, I would say they should be able to go ahead with that.
    But if there are a couple of instances I think where there 
are some disagreements there. That is--so I can understand 
where they are coming up. But I think they could on a case-by-
case basis go ahead with those things that have been--as long 
as the governors agree upon it.
    Mr. Forbes. Thank you, Governor.
    Ms. Bordallo, any questions that you----
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Governor, I represent the U.S. territory of Guam, where we 
have the largest National Guard unit per capita of any State in 
the United States. So you know where I am coming from.
    Governor Branstad. Right.
    Ms. Bordallo. Based on your experience with budget cuts in 
your own State, how do you see balancing the need for savings 
and cuts in the Air Force budget while maintaining Air National 
Guard readiness and a governor's civil response capability?
    Governor Branstad. Well, when we have to make tough budget 
cuts--and I had to do that. I was elected in 2010, inherited a 
financial mess, and we had to make some tough decisions and we 
ended up with a budget spending less than the previous year. 
That is not an easy thing to do. But we tried to really set 
priorities, and we tried to do it in such a way that was not 
going to hurt the most important priorities we have as a State.
    So, that is why across-the-board to me does not make sense. 
It makes--and certainly it does not when you have a cost-
effective way of doing it, where you can utilize the Guard.
    And part of the problem is I think historically the 
Pentagon kind of looked at the National Guard as a stepsister. 
And the whole idea is to try to change that so that the Guard 
would be at the table. Now the Guard is represented on the 
Joint Chiefs of Staff. Now we have the governors' council. All 
of this is good, but we need to see in reality following 
through what the intentions were to include the Guard as full 
partners.
    Because the Guard is now playing a very important role, a 
lot of the people that are deployed, a lot of the casualties, 
you know, from my State have been members of the National 
Guard. And I go to those funerals and meet with those families. 
And I can tell you, they are just as important as the regular 
military, you know, their role.
    And I will say this. They are better trained and better 
equipped than the regular military was when I served. So I am 
real proud of them from that perspective.
    But I just think the proposal, the alternative that the 
Council of Governors offered with the good work of our adjutant 
generals I think was a much more cost-effective way to go about 
this.
    Ms. Bordallo. Well, I certainly agree with everything you 
have said, and the Guard is out there standing shoulder to 
shoulder with Active military in the war zone. So--and we on 
Guam also have had many, many deaths. So I certainly agree with 
your comments.
    Also for the record, Governor, how do you suggest that we 
improve this process in the future so that we can avoid the 
problems we had this year? The actions that the House has taken 
are effective for only one year.
    Governor Branstad. Right.
    Ms. Bordallo. So we will have to address this issue again 
and if we do not get the process right we are going to have to 
come up with some solutions.
    In your opinion, how can the DOD better leverage the 
Council of Governors?
    Governor Branstad. Well, they need to meet with us and they 
need to listen. And also, I guess, when they are working on the 
budget, when they have these restrictions where people cannot 
consult with the governors and with the adjutant generals, I 
think we could avoid a lot of the problems this year if we had 
just had that.
    And I think Chairman Forbes called it kind of a gag order. 
You know, that is not the term that they use, but essentially 
that is what it is. That is why we were totally kept in the 
dark until this was actually announced.
    And that goes contrary to the whole intent of having the 
Council of Governors. We are supposed to be there to consult 
with and collaborate with the Pentagon in doing this so we can 
all do it together. That is what we want to do. We want to make 
what was intended work in reality the way it was supposed to, 
and it has not happened yet.
    Ms. Bordallo. And, Governor, you certainly do not want to 
have to read it in the paper after all is said and done.
    Governor Branstad. I do not want to have to read it in the 
paper again. I mean, this last year was a disaster. And all of 
our--and I will say, our Congressmen and Senators have been 
very supportive and very helpful in this process all--we have 
spoken as a united voice. The governors, you know, 49 
governors, when we were here for our meeting in February, 
signed on this letter to the Secretary of Defense.
    So that shows strong bipartisan support for changing this 
process, and that is why we think this commission that the 
Senate Armed Services Committee is suggesting makes sense as 
well, so that we can look at the structure of the Air Force and 
why they do not seem to be willing to really work in a more 
collaborative way with the governors and with the adjutant 
generals.
    Ms. Bordallo. Thank you very much, Governor.
    And I yield back, Mr. Chairman.
    Mr. Forbes. Thank you, Ms. Bordallo.
    The gentleman from Arkansas, Mr. Griffin, is recognized for 
5 minutes.
    Mr. Griffin. Thank you, Mr. Chairman.
    Thank you, Governor, for being here today. We have been 
impacted in Arkansas by some of these proposed changes, both in 
my district, which is around Little Rock and the Little Rock 
Air Force Base, as it relates to the transfer of aircraft to 
Little Rock Air Force Base.
    But on the National Guard side of things, we are 
particularly impacted as it relates to Fort Smith, where we 
have A-10s. And that is in my colleague Representative Womack's 
district, but we have all as a delegation been working to try 
to figure out the logic of the Air Force's decision to take the 
A-10s that are based in Fort Smith and move them out of State.
    And we have met with everybody there is to meet with pretty 
much, except for the President. We met, the delegation, 
Democrat and Republican, met with Secretary Panetta. We have 
met with four-stars, three-stars, two-stars, all the way down.
    And what we want more than anything are facts and analysis 
that we can read. You would think that decisions like this 
involving millions and millions and billions of dollars in some 
instances would involve at least a memo. With all the people 
they got working over at the Pentagon you would think that they 
are not just sitting around a table, you know, making oral 
decisions without something documented.
    What we have found is that there is nothing that they can 
point to, that the folks in the Air Force can point to justify 
some of the decisions. And I would tell you that BRAC, the 2005 
BRAC concluded--``Fort Smith is an ideal location for the A-
10.''
    And there are a lot of different reasons for that that I 
will not go into. But what we have said is, look, we are not 
going to come out as a delegation against this from the start. 
We just want to see how you got there; why you would take a 
high-value location and just say, ``We are going to move the A-
10s.''
    And all we have been able to get out of the Air Force is, 
and I do not know if they meant to say this, but all we have 
been able to get is, ``Well, there was sort of an idea that we 
want to have some aircraft capability in every State. So that 
means that we are going to have just rearrange a lot of 
aircraft and a lot of capabilities whether it is a good 
decision from a military perspective or not.''
    They just, I do not know if it was politically driven, but 
they just wanted to share the wealth and have something in 
every State.
    So, I say all that to say we are very frustrated with the 
lack of data, hard data that we could study. And I would just 
like to get your comments and find out whether you have 
encountered similar problems. And again, we have met with 
everybody. We have asked everybody. And I would also say this, 
and this is a little bit unrelated to today's hearing, but we 
have been fighting similarly with regard to the AMP, the 
avionics modernization program upgrades that the Air Force 
wants to cancel.
    We have--a lot of that affects C-130s--that does affect C-
130s at Little Rock Air Force Base. Similarly with regard to 
that, we have been asking for facts and how they got to the 
decision that it was more cost effective to take the route that 
they want to take. And again, no memos, no internal 
deliberations that we have been able to see; just a fact sheet 
and they say, ``Well, here it is.''
    So I would like to know, have you had difficulty getting 
data? And what do you think is going on?
    Governor Branstad. Well, I think we have had many of the 
same frustrations you have had just getting data and having the 
transparency. I mentioned, you know, we were supposed to be 
consulted in advance. We were not. And we think--and I just 
think the process needs to be improved. We are supposed to have 
collaboration and consultation on these things. And it seems to 
me that the Air Force in particular has just failed to do this.
    And this is something that obviously we are going to bring 
up again when we meet with them. But again, we have to get 
their attention. We need to get the top people that are 
supposed to be working with the governors to actually be there 
in attendance so we have that opportunity to bring this message 
across.
    But I think your frustration as a Congressman is very 
similar to the frustration that we have as governors and we 
feel, you know, we are the commander-in-chief of our National 
Guard, and if we do not have the capability we need and we have 
an emergency in our State, you know, it is our responsibility. 
So we want to make sure.
    And my experience has always been, all the years I have 
been governor, I have had the honor of serving a long time, the 
Guard has always been there. They have always responded. They 
have done a phenomenal job. I just want to make sure that they 
are always going to be able to do that.
    Mr. Forbes. The gentleman's time has expired.
    The gentleman from Iowa, Mr. Loebsack, is recognized for 5 
minutes.
    Mr. Loebsack. Thank you, Mr. Chairman.
    I again would like to welcome Governor Branstad.
    Governor, thank you for your testimony.
    I was proud when this process was going through the 
committee that the bipartisan amendment to block these cuts 
that I offered with Congressman Hunter from California passed 
with such strong support, and I really appreciate all that 
support from my colleagues.
    And I do appreciate the ranking member's kind words about 
the amendment. We know about the National Guard on Guam. It is 
absolutely a fantastic organization. I have been overseas with 
Representative Bordallo and you will never forget the 
importance of the National Guard on Guam, if you have ever been 
with her on one of these congressional delegations.
    Look, we all know that we are operating at a time of budget 
constraints. We also face threats from around the globe, as you 
mentioned. We really have to use taxpayer dollars as wisely as 
possible to protect our national security. And I am really glad 
that you mentioned, to that end, that the Air National Guard 
provides 35 percent of the Air Force's capabilities, with about 
6 percent of its budget. I think that is an important point to 
make.
    And the 132nd Fighter Wing of the Iowa Air National Guard 
has been recognized, as you know, as the top F-16 unit in the 
country, and their overall cost per flying hour is the second-
lowest in the country. Yet, they found out they were slated to 
see their F-16s retired and over 370 personnel cut while they 
were deployed in Afghanistan. That is amazing.
    And in 2008, when Iowa was hit with the worst natural 
disaster to ever affect our State, the 132nd was deployed to 
protect our communities.
    And as the Council of Governors, and you, Governor 
Branstad, argued for months in discussion with the Department, 
the Air Force's proposed reductions would significantly affect 
the governors' ability to respond to emergencies such as the 
one we experienced in 2008, not to mention 2 years later, as 
well, 3 years later.
    So Governor, I would, if you could, outline in a little 
more detail perhaps what you think about the role of the 
National Guard in terms of homeland response, in terms of 
floods, other kinds of things that the National Guard is 
required to do domestically with respect to homeland security, 
and whether any of that was really taken into account by the 
Air Force when they made this decision.
    Governor Branstad. It does not appear that they have really 
taken this into account. As I mentioned in my testimony, I have 
been governor a long time. I was governor back when we had the 
flood of 1993. So I have been through a lot of disasters, 
floods. And now we are into a drought. So I want to go back to 
Iowa next week and we are going to have meetings talking about 
the drought and the problems we are having, and you are aware 
of the damage that that is----
    Mr. Loebsack. You will be in my district in Mount Pleasant.
    Governor Branstad. Yes, I am going to be in your district 
on Tuesday. And I would just say, you know, I go back even to, 
and I mentioned last year we had all these people deployed, but 
then we also were fighting the flood along the Missouri River, 
and that was--that went on and on and on from the first of June 
well into September.
    I can go back even a little further. The crash of Flight 
232 in Sioux City, and in fact the Air National Guard in Sioux 
City did the rescue. That was a terrible tragedy, a terrible 
crash, but a lot of lives were saved. It was so well managed 
because of their wonderful training and experience and 
whatever, that they made it into a movie. Charlton Heston 
played Captain Al Haynes in that movie.
    But that shows the important role that the Guard plays. And 
the same thing is with this unit--this fighter unit that we 
have at the Des Moines Airport. They are the ones that provide 
security there. So if we have a crash or we have some incident 
at the Des Moines Airport, they are the ones that are there. 
They have the training and experience, and they--I am sure they 
would do the same kind of job that the Air Guard did up in 
Sioux City back in the crash of Flight 232.
    So that is the reason why I think it is so important. And I 
do not think maybe there is a--we as governors are keenly aware 
of it because the buck stops with us if it is a domestic 
situation. If it is a flood, a tornado, an ice storm or 
something like that, we have got to act to try to protect our 
citizens and do all that we can.
    But--and I like the Council of Governors concept because of 
this now, we can have a dual role. And if we have a situation 
that affects more than one State, we can actually have--in 
addition to the Guard, we can even have Reserve Components that 
can help us with those kinds of emergency situations.
    But I do not think the Air Force has got quite an 
appreciation for the important domestic role that these units 
are playing, and the personnel. And it is medical; it is the 
generators and things like that that the Air Guard provides in 
addition to obviously the pilots.
    Mr. Loebsack. Right. And then when they are transitioned 
from a Title 32 role to a Title 10 role, which we have seen, of 
course over the course of the last 10 years, that is really 
critical as well. They need to take into account all the 
different functions that the Air Guard can perform.
    Governor Branstad. Absolutely.
    Mr. Forbes. The gentleman's time has expired.
    I do not want to cut him off, but we have got a vote we 
have got to run to.
    Governor, it is probably going to take us about an hour, 
and I understand you have a hard stop at 12:30. So we want to 
thank you for being here and for all of your help. And if you 
have to leave, we understand. We will be starting our next 
panel right after these votes, if you cannot hang around.
    Governor Branstad. Well, General Timothy Orr, who is my 
adjutant general, will be here. He has more of the details and 
knowledge on this than I have. So I think--and General 
Lowenberg, and they are really partners on this. So you will 
get a chance to hear from General Lowenberg in the next panel.
    Thank you very much.
    Mr. Forbes. We thank you for your service and for being 
here with us.
    And with that, we are going to stand in recess until after 
the votes.
    [Recess.]
    Mr. Forbes. Gentlemen once again, thank you for your 
patience.
    And we have lost some of our Members as you can tell, those 
plane-sitting out there, they jump in them mighty quick after 
these votes, but we appreciate your patience in sitting through 
these votes. They never call us and ask if it is convenient to 
call the vote when they do, but to further clarify the impacts 
of the United States Air Force aviation reductions, I am 
pleased to have two distinguished individuals: Lieutenant 
General Chris Miller, Deputy Chief of Staff for Strategic Plans 
and Programs, and Major General Tim Lowenberg the Adjutant 
General of the State of Washington.
    General, we appreciate both your service to your country 
and your service to this committee by being here. We are 
looking forward to your comments to make a record that we can 
use for both this subcommittee and our full committee and with 
that we would love to hear any opening remarks you have.
    Also, letting you know that anything you would like to 
submit for the record as well, we are certainly willing to take 
that and have. At the end of any questions that we might have 
from the committee, if there is anything else you would like to 
add, or put in or clarify, please let me know. We want to make 
sure you have time to do this. This is an important record for 
us to create and build.
    So with that General Miller, I guess we will let you start 
off.
    General, you might hit that button there. Sometimes a 
little tricky.

 STATEMENT OF LT GEN CHRISTOPHER D. MILLER, USAF, DEPUTY CHIEF 
OF STAFF FOR STRATEGIC PLANS AND PROGRAMS, A8, U.S. DEPARTMENT 
                        OF THE AIR FORCE

    General Miller. I got it sir, thank you.
    Chairman Forbes, Ranking Member Bordallo, distinguished 
member of the committee, I am very pleased to be here with you 
today and honored to represent your United States Air Force as 
we discuss important Air Force aspects of the President's 
fiscal year 2013 budget.
    It is also a pleasure to be alongside Major General Tim 
Lowenberg. Tim and I first worked together a few years ago when 
I was at U.S. Northern Command and NORAD's [North American 
Aerospace Defense Command] director of plans, policy, and 
strategy.
    In that capacity I had the rewarding experience of working 
with both guardsmen and Reserve partners of all services on 
challenging and important issues of homeland defense and 
support to civil authorities. In particular I had the pleasure 
of personally supporting General Lowenberg as he led Washington 
State's efforts to prepare for the Vancouver Olympics, which 
was a complex effort with great results that speak for 
themselves.
    Today, as the Air Force Deputy Chief Staff for Strategic 
Plans and Programs, I am responsible for overseeing the long-
range planning needed to ensure the Air Force of the future can 
provide the global vigilance, reach and power our Nation 
expects from our Air Force.
    I am also responsible for facilitating the efforts of the 
men and women from all of the parts of our total force who each 
year build the Air Force's budget submission, which allows us 
to perform the missions that we are assigned by the President 
and perform under the direction of combatant commanders.
    In both the near term and the future, Air Force leadership 
is responsible for building an Air Force that advantages 
America and ensures success in meeting any challenge we are 
asked to overcome.
    The 2013 President's budget submission for the Air Force 
reflects a very carefully considered prioritization of 
resources to achieve that goal. Sustaining the right mix of 
air, space and cyber capabilities required a number of 
difficult choices to be made in our most recent budget, such as 
the proposals to retire, divest or transfer aircraft, along 
with the accompanying personnel changes.
    These proposals were developed, debated and validated not 
only within the Air Force, but across the entire Department of 
Defense. If enacted, this budget will yield an Air Force with 
the smallest total force personnel end strength and total 
aircraft inventory in our history as a service.
    With that force, however, we have produced an effective 
total force solution that supports the Secretary of Defense's 
January 2012 strategic guidance and meets the requirements of 
the Budget Control Act.
    Our guiding principle was balance, with regard to both 
required capability and capacity of the Nation's Air Force. To 
retain the critical core capabilities for the Air Force and the 
ability to effectively respond to mission demands, we have 
balanced risk across a very diverse set of mission areas, 
ranging from air superiority to global mobility to space 
superiority and nuclear deterrence.
    We also balance the demands on today's Air Force and airmen 
with the compelling need to sustain the strength of our future 
total force.
    And with regard to the proposed reductions, two important 
principles drove our decisionmaking. First, we chose quality 
over quantity. As our force evolves to match the demands of the 
new strategy, retaining larger numbers of under-resourced Air 
Force aircraft without the full human and financial resources 
needed to operate, maintain and deploy those airframes would 
significantly increase the risk of a hollow force that would 
inevitably become inadequate to provide the global vigilance, 
reach and power the American taxpayer expects.
    Two decades of continuous combat operations have 
accelerated the aging of our aircraft and detracted from the 
Nation's ability to recapitalize them, and that is a priority 
for us.
    Additionally, we have experienced a gradual erosion of our 
ability to train for the most demanding wartime missions due to 
the constant pace of ongoing deployed operations. Intense 
efforts to find efficiencies over several years have been 
fruitful, but all these factors have combined to leave the Air 
Force with a limited ability to shift resources and personnel 
within or between air, space and cyber mission areas to sustain 
excess aviation force structure without either hollowing 
today's force or mortgaging tomorrow's.
    Second, we are a total force, and we are deeply, 
irrevocably and successfully integrated. We are committed to 
staying that way.
    We are also committed to building an Air Force that 
continues to reflect air, space and cyber capabilities that 
fundamentally depend on the effective employment of 
appropriately organized, trained and equipped Active, Guard, 
and Reserve airmen.
    Sustaining all aspects of that force, meeting the demands 
currently and potentially placed on it, while respecting the 
inherent character of each part of the total force was a key 
determinant of our fiscal year 2013 force structure proposal 
and the Active-Reserve Component mix reflected in it.
    We believe that in these proposals we struck a difficult 
but appropriate balance of cost-effective capabilities to serve 
the national defense, now and in the years to come.
    Finally, we fully respect and value the stewardship that 
the Congress exercises in these matters and thank you for your 
strong and continuing support to the men and women of our Air 
Force. We are committed to faithfully executing the law and 
welcome this opportunity to provide Members of Congress our 
perspective with regard to the fiscal year 2013 force structure 
proposals.
    Thank you, sir.
    [The prepared statement of General Miller can be found in 
the Appendix on page 65.]
    Mr. Forbes. General, thank you.
    General Lowenberg.

   STATEMENT OF MAJ GEN TIMOTHY J. LOWENBERG, USAF, ADJUTANT 
        GENERAL, STATE OF WASHINGTON MILITARY DEPARTMENT

    General Lowenberg. Thank you, Chairman Forbes, Ranking 
Member Bordallo, distinguished members of the committee. My 
name is Major General Tim Lowenberg. I have served as an Air 
Force officer for more than 44 years, 21 of which have been as 
a general officer. But I appear before you today in State 
military status.
    My testimony has not been reviewed or approved by anyone in 
the Air Force or the Department of Defense. And I ask, Mr. 
Chair, respectfully, that my formal testimony that I have 
submitted to the committee be admitted for the record.
    Mr. Forbes. It will be.
    General Lowenberg. We are here today because in preparing 
its fiscal year 2013 budget request the Air Force did not 
comply with any of the statutory requirements, Presidential 
executive order directives or policy commitments to communicate 
with governors and consult with the Council of Governors before 
proposing Air National Guard force structure and manpower 
reductions in the fiscal year 2013 budget request.
    When governors learned of these reductions after the fact 
and asked Secretary Panetta to reconsider the Air Force 
proposal on February 27th, the Secretary agreed and directed 
Air Force leaders to meet with Council of Governors 
representatives. Major General Tim Orr and I represented the 
Council of Governors in the four--and there were only four--
meetings with Air Force and National Guard Bureau leaders.
    This much is undisputed, as acknowledged by Ranking Member 
Bordallo in the earlier panel: The Air Force fiscal year 2013 
plan imposes 59 percent of all aircraft reductions and six 
times the per capita personnel reductions on the Air National 
Guard.
    We gave Air Force leaders an alternative proposal to get 
the discussions under way that would have preserved combat 
capacity and saved money by restoring a balanced reliance on 
Air National Guard forces. Although Air Force officials 
continue to speak of carefully calibrated, symbiotic total 
force budget development processes, it was clear in each of our 
four meetings that Air Force and National Guard Bureau leaders 
agree on very little about the fiscal year 2013 budget.
    The National Guard Bureau calculated the council's proposal 
as increasing total force combat capacity and preserving more 
aircraft and more men and women in uniform, while generating a 
net savings to the Air Force of $700 million.
    The Air Staff, reviewing the same proposals with the 
National Guard Bureau staff over a weekend, calculated that 
retaining the force structure in the Air National Guard would 
actually increase costs by $284 million. That is a $984 million 
variance working on the same set of facts but with decidedly 
different controlling assumptions.
    It was also the last time the Air Force staff worked with 
their National Guard Bureau counterparts prior to any of the 
other meetings.
    Less than 15 minutes into the second meeting, and after 
only about 2 hours of total discussions, Air Force leaders 
pronounced everything about the Council of Governors proposals 
to be totally unacceptable and insisted on implementing the 
sweep of fighter aircraft from the Air National Guard to the 
Active Air Force.
    Both the House-passed fiscal year 2013 National Defense 
Authorization Act and the bill reported by the Senate Armed 
Services Committee reject these Air National Guard force 
structure reductions. This bipartisan congressional 
intervention is essential to prevent irreparable damage to the 
Air National Guard.
    In addition, Secretary Panetta's commitment to 
congressional leaders that there will be no implementation of 
proposed fiscal year 2013 force structure changes until further 
action by Congress is a welcome strategic pause.
    As is, his directive to the Air Force to suspend aircraft 
transfers and retirements previously scheduled for 
implementation in fiscal year 2012, if handled correctly, this 
commitment can also complement the strategic pause for fiscal 
year 2013 actions and preserve congressional options as to 
disputed transfers.
    Most welcome of all is the Senate Armed Services 
Committee's proposed commission on the structure of the Air 
Force. An independent review of Air Force organizational 
structure and strategic planning and budget processes is 
essential in light of Air Force insistence on reducing its most 
cost-effective Reserve Components and continued development of 
budget proposals behind closed doors.
    Now, not all pending fiscal years 2010, 2011 and 2012 Air 
Guard force structure changes are points of contention between 
the Air Force and State leaders. In fact, most are not. With 
that in mind, a process can and should be established to 
proceed with a proposed fiscal years 2010, 2011 and 2012 
transactions that are supported by all affected parties while 
Congress studies the Air Force future year budget proposals and 
awaits the recommendation of a commission on the structure of 
the Air Force.
    We should be able to move forward on any as yet unexecuted 
fiscal years 2010, 2011 and 2012 changes that are approved by 
the Department of Defense, the Air Force, the National Guard 
Bureau and the governors of each affected State or territory.
    Concurrence with such transactions can be documented in 
whatever manner is acceptable to Congress and the affected 
parties.
    Thank you for the opportunity to testify before you today. 
I am looking forward to responding to any questions you may 
have.
    [The prepared statement of General Lowenberg can be found 
in the Appendix on page 85.]
    Mr. Forbes. Thank you, General.
    And with the subcommittee's consent, what I would like to 
do is reverse the order of how we are asking the questions on 
this panel since some members did not get to ask their 
questions during the last panel. We will make sure everybody 
gets to do that, if there is no objection to that. And we will 
start with the gentleman from Mississippi, with his questions, 
then we will go to the gentlelady from New York next, if that 
is agreeable.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Forbes. The gentleman is recognized for 5 minutes.
    Mr. Palazzo. Definitely no objections from me to go first.
    Thank you, thank you, Mr. Chairman. And again, thank our 
witnesses for being here.
    Thank you for your years of honorable service to our 
country and what you do for our men and women in uniform.
    Now, I have received some personal briefings on the issue 
that we are discussing today, and the one question that 
continues to come up over and over again for me personally is 
where is the benefit of the reductions, where would be they be.
    Perhaps I am under the misconception that the aircraft 
movements and retirements were made with the intention of 
saving money, especially when the Secretary is asking for 
another round of BRAC closings. But from every angle it seems 
that the movement of aircraft in many cases will actually cost 
more in the long run.
    Let me give you an example. Under the force structure 
changes, about 10 aircraft were scheduled to leave Keesler Air 
Force Base in Biloxi to move to Dobbins Reserve Base in 
Atlanta. Not only does Dobbins not have the appropriate 
facilities to house and provide for an Active Duty Component, 
but it is my understanding that the hangars at the Dobbins are 
not capable of housing the C-130J stretch model aircraft.
    Unless I am totally mistaken, this means that there is 
billions of dollars of MILCON [military construction] that will 
be required just to move these aircraft that are suited 
perfectly for Keesler and the facilities there.
    So my question is, can you explain why at a time when we 
are all talking about the cost of doing business and driving 
down costs in this tight fiscal environment that we are in, the 
Air Force is making decisions that will actually increase 
costs?
    General Miller.
    General Miller. Congressman, thank you for that question.
    In response to your--the first part of your question, why 
we are making the moves we are making, the aggregate 
requirement for airlift under the new strategic guidance, 
because of the types of conflicts that we have been asked to 
plan for under that guidance, decreased from the high 300s of 
tactical airlift aircraft down to 318. So we had an excess of 
65 C-130 platforms that we did not need to accomplish the 
airlift tasks that we as an Air Force expect to have to 
accomplish and have been directed to plan for.
    That was part of achieving the savings required under the 
Budget Control Act. So for our total force structure reduction 
we achieved about $8.7 billion worth of savings and just in 
fiscal year 2013 alone about $1.4 billion of that.
    But in terms of what is required to sustain our Air Force 
and to keep the components healthy, there are some costs 
associated with the movement of aircraft that was required to 
mitigate the impact of a reduction that large.
    And so for example in the case of the move to Dobbins, 
while it is true that the facilities there are not exactly 
suited at present for the C-130J, construction of new hangars 
is unlikely to be necessary and modification of the existing 
hangars is still an option that I believe we are investigating. 
I would be happy to provide you further information 
specifically on that issue.
    [The information referred to can be found in the Appendix 
on page 167.]
    Mr. Palazzo. Well, absolutely. I have asked for, several 
months ago, for--you know answers to questions just like that. 
And again from every angle that we are looking at, it just does 
not make sound business sense, and I know there is probably a 
possible military strategy to it, but it is--as you know the 
distance is not that far away.
    It seems to me--I know they are supposed to be losing some 
C-130Hs and is this the, hey, you know, do not scream too loud 
Dobbins, we are going to backfill with some C-130Js, and--but 
at the time I mean you know we have spent millions of dollars, 
not just on the hangars, but on training the personnel.
    And these people enjoy flying out of Keesler Air Force 
Base. They broke records in Afghanistan. It took them 3 to 5 
years to train up. They are there. We are you know, so to spin 
up the same group and Dobbins is just, you know, is going to 
take probably 3 to 5 years.
    We have a very expensive simulator. We have got great 
training ground. So I am looking forward to your questions and 
looking forward you know to your answers to my questions, 
because I think we will probably be having some more, you know, 
discussion on them.
    And again, Mr. Chairman, I appreciate you allowing me to be 
here today. I was going to ask another question. With the cuts 
that are hitting the Air National Guard, can you all kind of 
give me the breakdown on the cuts between Active Duty Air 
Force, Reserve, and National Guard?
    And also was there any disproportional cuts made to one of 
the components over the others?
    And you can start off, yes.
    General Miller. Sir, let me put that in perspective. As 
General Lowenberg mentioned, the cuts in this particular budget 
did fall more on the Air National Guard than they did on the 
Active Duty.
    If you look at a longer period of time than a single year, 
however, over the last 30 years the strength of the Air 
National Guard has been somewhere upwards of 100,000 as high as 
116,000. The strength of the Active Duty has decreased by about 
43 percent down to its current total of 332,000 and decreasing 
further by about 3,900 in the fiscal year 2013 budget.
    All of those force structure--all of those end strength 
reductions are driven by retirement of the corresponding force 
structure. So in this particular era where our Active Duty 
force is both as small as it has ever been and tasked at a very 
high level, one of our big concerns was to sustain our ability 
to deploy airmen of all components consistent with the 
Secretary of Defense's rotation policy.
    An Active Duty airman, the standard is to deploy one period 
out of every--one period deployed for two non-deployed; for 
Guard and Reserve, one period deployed for five non-deployed. 
And so the Active Duty force is expected to perform at a higher 
rate of deployment.
    But both components have targets for what keeps them 
healthy, and so based on our assessment of the demand for a 
variety of weapons systems, the reductions that we made were 
our best projection of how to make each component capable of 
meeting the demands that we should place on it within those 
parameters.
    Mr. Forbes. The gentleman's time is expired, but if either 
of you would like to supplement the record with a written 
response to that, we would love to receive it.
    Mr. Palazzo. Thank you.
    Mr. Forbes. Gentlelady from New York is recognized for 5 
minutes.
    Ms. Hochul. Thank you, Mr. Chairman. I appreciate you 
extending me this courtesy. I have a particular interest in 
this situation representing the Niagara Falls Air Reserve 
Station.
    I would be very curious to know when you say that you are 
favoring quantity over quality, or quality over quantity, what 
sort of decisionmaking went into deciding which bases and 
missions are the ones that have the quality?
    What metrics were used? Because that is an important 
decisionmaking process, that our area feels that they were not 
part of and we wanted to put our best foot forward, but feel we 
did not have that opportunity when the news came rather 
surprisingly that we would be losing that mission.
    So that is my first question.
    General Miller. Well, ma'am, I appreciate your question, 
and I appreciate your pride in the airmen of Niagara.
    When we talk about retaining quality over quantity, that 
does not refer to the quality of individual units, and I think 
I should make it very clear that no unit is chosen because it 
either is performing well or performing poorly, because units 
are collections of people who do a, generally speaking, a great 
job. And every unit in the Air Force has tremendous 
capabilities.
    But what we did in terms of sustaining our quality was to 
sustain the appropriate amount of investment to be able to 
replace airplanes, to upgrade aircraft, to provide space and 
cyber capabilities, the things that are required for the Air 
Force of the future. And that really was the heart of the 
quality versus quantity.
    With one important addition, and that is we have to be able 
to sustain and equip, in other words to provide parts, 
equipment, flying hours, all of the things that make airmen 
trained and ready for the force structure we keep. And so that 
was our primary consideration in making the overall aggregate 
determination.
    For specific selection of units, one of the things that 
went into that, the Guard and the Reserve leadership both made 
decisions according to a set of principles that were important 
to each component. And one of those principles for the Reserves 
was when there is another flying mission in proximity to a 
Reserve flying mission that in the aggregate was excess, that 
was a consideration for them in terms of those places that 
could be reduced with the minimum damage to the capability of 
the Reserves as a whole.
    Ms. Hochul. Then let me ask you about the decisionmaking 
process that was involved in determining which bases received 
new missions, the ones that were told you are losing this, but 
do not worry you now have ISR [intelligence, surveillance and 
reconnaissance], you have cyber-security, you have something 
else to replace it.
    And certainly I am saying that with the emotive question 
because if you are going to remove C-130s or have any 
consideration of that from the Niagara Falls Air Reserve 
Station, I would want to know why we would not be in that 
category to receive a new mission, our proximity to Canada, our 
tried and true record of accomplishment, 1,500 missions to 
Afghanistan just to name a few. So that is what I would be 
saying.
    If we want to be part of that Air Force of the future, we 
need that opportunity.
    General Miller. Yes, ma'am, I understand that. In fact I 
worked with some Niagara folks when I was in Afghanistan, and 
they did in fact do a great job.
    We did not have sufficient mission as an Air Force to 
backfill every loss of force structure across the entire 
enterprise. And so in some cases where there was some remaining 
mission, that played into the determinations made by the Guard 
and Reserve leadership.
    In other cases, and I believe Niagara's in this case, there 
is an action involving the Navy to bring a capability into that 
installation that will provide some backfill of a sort.
    Ms. Hochul. Please keep us in mind. We will be--the 
dialogue will continue, but thank you for your service and your 
willingness to come forward, but we need to get it right next 
time.
    I think there are a lot of people that felt that this could 
have been a more transparent process and involving the 
community and certainly the people who have a very vested 
interest in what goes on in those local bases.
    So, I yield back the balance of my time, Mr. Chairman, 
thank you.
    Mr. Forbes. Thank the gentlelady.
    And the gentleman from New York, Mr. Gibson, is recognized 
for 5 minutes.
    Mr. Gibson. Well, thanks very much, Mr. Chairman, and 
greatly appreciate the service and leadership of our general 
officers here today. Thank you for being with us.
    I want to begin by associating myself with the remarks of 
the gentlelady from upstate New York. This is a--just really an 
important issue to our State for yes the obvious, but also, you 
know, I just--I cannot--I do not think I can properly describe 
for you what it was like to go through that storm last year, 
Hurricanes Irene and Lee and just the invaluable service 
rendered by our National Guard, Army and Air, in the initial 
phase of the crisis and then in the beginning towards the 
recovery.
    Let me just say to preface a couple points I am going to 
make is, one, I certainly believe that we should be going 
through a comprehensive review process with an eye towards 
national security establishment reform. I have said a few 
things on that myself. I actually think we can be safer for 
less money.
    But I have had--I have struggled with this initiative for a 
couple reasons. One, in my last deployment I led the global--
the Army's component to the global response force to Haiti. And 
you know that was very painful to get paratroopers on the 
ground in Port-au-Prince based on platform, strategic lift. And 
we got that done over time, but it was not where I think it 
should have been.
    Now there were a lot of factors that were bearing on the 
problem including the surge in Afghanistan. Certainly 
understanding all that but I say that, that when I inquired 
about the numbers for our strategic lift the response I got was 
that they were using the mobility study from 2009.
    And then I juxtaposed that to my experiences. And then of 
course, as was alluded to the testimony earlier, just moments 
ago, that the President's directional change, strategic 
directional change and what I thought I heard you say just 
moments ago was that it appears that you are implying that you 
have updated the air mobility study.
    Is that true?
    I guess that is my first question is, the assumptions that 
were made, what were they based on?
    General Miller. Well, sir, thank you for that question. The 
mobility study that you referred to, the MCRS-16 [Mobility 
Capabilities and Requirements Study 2016], is still the only 
completed and fully vetted mobility study. But in the process 
of arriving at the fiscal year 2013 budget and in the deriving 
the strategic guidance that we work to, that study was reviewed 
on a number of fronts, not only within the Air Force but by the 
Department of Defense assessment entity.
    And so the requirements that we were moving to were 
somewhat relaxed in terms of the overall volume of 10 miles per 
day that MCRS-16 required compared to what we are required to 
be able to do today.
    And by the strategic airlift standards, that number has 
changed to 275, in terms of the fleet that we expect to go 
forward with, which is comprised of the C-5B, the C-5M and the 
C-17.
    Mr. Gibson. And just to follow up, and I think I am going 
to have to ask the second question and let you gentlemen 
respond because I am not going to have time for it.
    But in this figure, how much is it sensitive to the TAGs 
and to the governors?
    Because, certainly, knowing this is based on war plans, and 
as I pointed out moments ago, you know, we went through this 
storm, and I am just wondering who is the arbiter that is 
putting all these requirements together?
    And the second question has to do with, you know, when we--
when I asked about the data that roughly a third of the mission 
are done for percent, 7 percent of the cost, the response I got 
from leadership was but the Guard is not able to keep up with 
the op tempo [operational tempo].
    And at the time when I heard that, that was a new argument 
to me, so I went back to my TAG and I said, this is what I was 
told. And they went back and ran their analysis and they said 
it was not true. They said they still have capacity left to 
give.
    So I am wondering, has that been re-engaged?
    And I am sorry, it looks like I have--I am going to--
perhaps you can respond and then you can get it for the record.
    Thank you, Mr. Chairman.
    General Lowenberg. With the chairman's permission, 
Congressman Gibson, I would like to respond because I have not 
had an opportunity to respond to the earlier questions.
    I have been in Haiti, and I know the difference between 
planning assumptions and ground truth. You and I have seen 
ground truth in the theater. That is what adjutants general see 
throughout the United States and abroad. The challenge and the 
obligation for American civic leaders and Members of Congress 
is to maintain maximum combat capacity and maximum surge 
capacity for the available funds.
    And we all know that there is intense pressure on the 
available funds.
    When we raised these same issues in the meetings with the 
Air Force leaders in those four meetings--and we only really 
discussed this in the first meeting--the response of some of 
the more senior leaders of the Air Force was that, as important 
as cost efficiencies are, there are other things more 
important.
    When we got into discussion of the assumptions that drove 
the calculations, nearly a $1 billion range between the 
National Guard Bureau's assessment of a $700 million savings 
and the Air Force assumption of a $284 million cost overrun, if 
you will, we saw things such as--one of the units we were 
talking about in one of the meetings had deployed many times 
for half of the unit. Half of the wing had deployed for the 6-
month AEF [Air Expeditionary Force] rotation, but that counted 
as a full rotation for the entire wing.
    So not everything that counts is counted and not everything 
that is counted counts, quite frankly. And so I think we have 
seen a wide divergence of budget figures and cost calculations 
that are difficult to deal with because they are done behind 
closed doors with what the chairman referred to in the earlier 
panel as a gag order.
    It should be done in the open day.
    Mr. Forbes. General, thank you.
    And, General Miller, I do not want to cut you off. Do you 
want to respond to that?
    I want to make sure we get everything on the record.
    General Miller. Yes, sir, if I could, let me just address, 
with regard to the strategic airlift fleet and domestic airlift 
requirements, those two things really do not overlap. The 
domestic airlift requirement is primarily captured with the 
tactical airlift. That is not to say that we cannot use and do 
not use strategic airlifters to do things that need to be done 
by the governors or in case of natural disaster, but in terms 
of the requirement, it is not captured there so much.
    On the issue of cost, there is very little about cost that 
is actually behind closed doors.
    One of the things that I think is important to put into 
perspective is that, when we talk about 6 percent of the cost 
and 35 percent of the capability, there are some assumptions 
there that need to be stated.
    So the Air Force's budget is made up of what we call blue 
obligational authority and non-blue. The non-blue is 
nondiscretionary. The Air Force has no control over it.
    So if you take the 6 percent of O&M [operations and 
maintenance] funding that the Guard expends as a percentage of 
what the Air Force actually controls, it is about 7.5 percent. 
If you take the overseas contingency operations funding out of 
the denominator, it is about 8 percent.
    If you take the research, development, testing, and 
evaluation and the procurement that the Guard does not incur an 
expense for out of the denominator, that rises to about 12 
percent. And in terms of the actual capability, while the Guard 
provides huge capability in many categories of the Air Force's 
output, certainly tactical airlift, strategic airlift, 
fighters, they do not provide any output in nuclear deterrence 
and nothing significant in space.
    And so there is a nuance in the 35 percent capability 
calculation that I think is also important.
    And with regard to the specific costing of the options that 
the Council of Governors put on the table, some of the things 
that account for the difference were discussed in those forums, 
and they have to do with the modernization of airplanes that we 
keep was not accounted for by the National Guard calculations. 
That was discussed. And when you factor in the required cost of 
modernization and long-term maintenance of those aircraft, the 
cost goes up.
    Similarly, the cost of deploying airplanes to replace 
combatant commander-required assets that are stationed in 
Europe that would have been removed by the Council of 
Governors' proposal was not factored in.
    And so much of that delta in the cost estimate is accounted 
for and was discussed in those meetings.
    Mr. Forbes. The gentleman from Iowa, Mr. Boswell, is 
recognized for 5 minutes.
    Mr. Boswell. Well, thank you, Mr. Chairman.
    And I want to thank you and the ranking member, for 
allowing us to sit on at your committee.
    I think I would like to make more of a general statement. 
First off, I--all of you sitting across from me, I admire and 
appreciate your service. Thank you very much. This row, the 
next row and anybody else in the room, thank you. I appreciate 
it a lot.
    Sometimes we are the victim of where we have been, and I 
would just like to address something that I think that I have 
got a little bit of a grip on, and we will see, as time goes 
on, but it looks to me like there is going to be continuing 
dialogue about how this re-org or reduction force, however you 
want to call it--a lot of dissatisfaction here.
    You know that. I am not telling you a thing you do not 
know. And I know, when we started with the all-volunteer idea, 
I was still in uniform. I thought this probably--I am not too 
sure this is going to work. But I have become convinced it does 
work. It is cost-effective. And we have got some extremely 
highly trained people.
    I am not going to go into detail on that because I see my 
adjutant general sitting right behind you, who I know has got 
all those details, and you do, too, about the proficiencies of 
our pilots, our maintenance people, and so on.
    I went through a little bit of a fuss here 2 or 3 years ago 
about what was going to change doing maintenance. I appreciate 
that did not happen, could have a big morale factor, and we 
have got a tremendous maintenance operation in the 132nd and as 
other units do, too.
    It is, kind of, like owning your car, you know. It is your 
airplane, if you take care of it every day. It means a lot.
    So what are we going to do?
    Make no mistake about it. You know, I know, that the 
Reserve Components, the Guard and the Reserve, is part of the 
standing force. Just look what we have been doing. It is clear.
    And yet governors, as we heard from our governor today, and 
I much appreciate his testimony, and all governors still have 
this responsibility to deal with emergencies in their States, 
and they turn to their Guard and Reserve, and they must do 
that.
    So what are we going to do? I think there is more to this 
when we think about cost-effective and how do we manage this?
    And again, I am not going to regurgitate all of the details 
about how great I think the 132nd is, but it is a great unit. 
But there are other great units. I will let General Orr tell 
you about that.
    But when I was teaching at the Command and General Staff 
College and started to try to get a bigger, broader concept of 
tactics and how we are going to defend ourselves because it 
keeps changing, technology. Now, the big eye in the sky, the 
satellites, all this stuff, and I think of the footprint of 
having a--you know, to me, when I started, like at Fort Sill, 
Fort Benning, or any of the Air Force bases, you know, there is 
no community that wants to give up their unit, whether it is 
Standing or Reserve or Guard. Nobody wants to do that.
    When you look at this big picture, the footprint, you know, 
where are we getting the biggest bang for our buck and the most 
safety, as we think about how we situate ourselves?
    And I am saying this mostly to you, Mr. Chairman, too. You 
know, we have got this humongous base with all this equipment 
and personnel, which is, kind of, in our tradition. Nobody 
wants to give it up. Remember? Or do we spread them out and 
have that footprint pressed out over a number of areas and then 
realize that we have proven the efficiencies and the cost-
effectiveness of doing that? And we spread it out a lot.
    I do not see how you can avoid running into this here with 
us, this committee and the rest of us around here, without 
really addressing that carefully.
    So I would just suggest we go back and--I have no doubt you 
have been thinking about it some, because I have brought this 
up before. I brought it up with the Secretary.
    But this needs to be really carefully thought out. And you 
better pull those governors in and let them be part of it.
    This--you know, ``we are having our meetings over here and 
then we will tell you when we get ready,'' is not going to 
work. You already know that.
    So let us be inclusive and if you have to move into 
classified situations, you know how to do that. The governors 
know how to do that. And let us just put the cards out there.
    And what are we going to have when we get done with this 
discussion? And it seems to me, and I will be interested to 
watch you go through, and I do not want this to be a staff 
study where you know what the conclusion is before you start.
    [Audio Gap.]
    Mr. Latham. --that was singled out for elimination. When I 
was--when I asked about what the basis was, well, it was a 
judgment call--no criteria, no basis for it. They are just 
saying, ``Well, somebody visited with somebody and that is what 
they came up with.''
    I think we all expect every taxpayer dollar to be used 
wisely, and I really question whether the Air Force oftentimes 
will take into consideration the value, say, at the Des Moines 
airport of all the other activities and assets that are put 
forth, you know, locally by the air wing there and if those 
things are taken into consideration.
    You mentioned earlier, I think, about that the governors 
did not take into consideration some other things that you were 
talking about. Certainly, I think it goes both ways that you 
should be looking also at the resources made available to the 
public and to the State offered by the Guard units.
    So just very briefly, if you could respond as far as how in 
the world could you notify people in a newspaper article, 
rather than to have conversations going on; to me, that is just 
appalling.
    General Miller. Well, sir, thank you for the question. Let 
me address a couple of things.
    One is that if you look at the way we have done for years 
the resource planning process, not just in the Air Force, but 
in the Army as well, which has three components. The Air 
National Guard Bureau and the National Guard Bureau are both 
involved--Air National Guard with the Air Force resource 
planning process.
    They are an integral part of every meeting we have as we go 
through the formulation of each budget. For the Department, the 
National Guard Bureau is represented in the departmental--the 
DOD discussions as we finalize, or really as we develop the 
budget proposals.
    And so in this particular year, there were some additional 
constraints put on the sharing of information which were not 
absolute, by the way.
    Mr. Latham. Why?
    General Miller. Because it was a very difficult time of 
both reformulating a strategy and looking at the ways that we 
could achieve the targets set forth by the Budget Control Act.
    Having said that, sir, it did not--it was not an absolute 
prohibition. And there was involvement leading up to the 
President's release of the budget to the Congress when I think 
decisions made outside the Air Force on who to talk to, when. I 
cannot control that, but I think there was certainly more 
control over information than in most years, but not absolute.
    And if I could just address your other point, sir, on the 
selection of particular bases, we looked at our aggregate 
fighter requirement under the new strategy, and that fighter 
requirement, based on the fact that we would no longer plan to 
fight large-scale stability operations, we were able to take 
the majority of our fighter reductions from the A-10 force, 
which is a more narrow capability for operating in that kind of 
an environment.
    So the number of F-16s that we could or wanted to remove 
from the force was fairly limited. This follows on a fiscal 
year 2010 reduction of about 250 Active Duty fighters. So our 
overall fighter capacity has decreased quite a bit over the 
last few years.
    The selection of where the F-16 reduction would be taken 
was primarily driven by the overall number, but then it was 
localized based on the air sovereignty alert mission and the 
normal production of that mission by various units and the 
estimate of cost savings from each of the units across the 
force.
    Mr. Forbes. The gentleman's time is expired.
    The ranking member has been incredibly patient, so we are 
going to come to her next.
    But I just want to point, General Miller, this is not to 
you, but this is to that building across and down the street. 
You know, what Congressman Latham raised is incredibly 
important. We do not do transparency because it is easy. We do 
it because it is right for the American people.
    And this is a pattern. You know, just a few years ago, 
Secretary Gates issued gag orders--they were gag orders on 
members civilian and uniformed in the Pentagon that they could 
not even talk to Members of Congress about the effects that 
cuts were going to have. When they shut down the Joint Forces 
Command, they issued gag orders that no one could tell us the 
analysis that was taking place on that.
    They refused to give us a shipbuilding plan that the 
statute required that they give us because they did not want us 
to know that information; refused to give us an aviation plan 
because they did not want us to have that information. And now 
recently, they have issued an arbitrary rule that says reports 
can only be 15 pages long. So we get a China report that is 15 
pages; two pages on cyber--I mean, two paragraphs on cyber-
attacks and what we are worried about; three pages, I think, on 
space concerns.
    And we respect you and your service and your demeanor, so 
this is not to you. But if you do not mind, take that message 
back over to them that you are seeing a lot of Members that are 
tired of this lack of transparency.
    And with that, I want to yield to my friend and the ranking 
member for any questions that she might have.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. That was 
well said.
    General Miller, I have a question for you. As you know, the 
fiscal year 2013 budget request included an Air Force request 
to terminate the Global Hawk Block 30 unmanned aircraft system 
program. Nine Global Hawk Block 30 aircraft are currently 
deployed in Central Command, European Command and the Pacific 
Command, including 4 on Guam.
    In congressional action to date on fiscal year 2013 
authorization and appropriation bills, the House of 
Representatives as a whole has supported the combatant 
commanders' requirement for Global Hawk Block 30 and require 
the Air Force to continue to support the combatant commanders. 
Yet, we have received unofficial information that the commander 
of the Air Force Air Combat Command, acting contrary to both 
House defense bills, recently informed General Schwartz that he 
intends to redeploy to the continental United States the 9 
Global Hawk Block 30 aircraft currently supporting combat 
commanders and the warfighters.
    So general, would you please clarify the Air Force's plans 
for Global Hawk block 30 to comply with the current stated 
intent of the House of Representatives?
    General Miller. Yes, ma'am. In terms of the requirements 
that combatant commanders have, those requirements are stated 
in terms of a capability, not a particular platform. And that 
is not just in the intelligence, surveillance and 
reconnaissance mission area, but that is in general. 
Requirements are generally stated in terms of capabilities for 
output.
    It is certainly true that under the fiscal year 2013 
proposals that we submitted, we did not think that we could or 
that we had to sustain the Global Hawk, and I recognize your 
point about the intent of the House.
    However, we are discussing what options we must take to 
essentially stay within available resources as we get closer to 
fiscal year 2013. I am very well aware that we can take no 
irreversible actions that would prejudice further action by the 
Congress as a whole.
    And so what I can tell you is that the discussion is 
ongoing about how we deal with the Global Hawk, like it is with 
many other platforms in the fiscal year 2013 proposals, but at 
this particular time a decision has not been made.
    Ms. Bordallo. Thank you, General. But I certainly hope we 
will rethink this.
    General Lowenberg, I understand that you will be retiring 
after 44 long years in service. And just let me say--and I am 
sure the chairman also joins me in thanking you for your 
longtime dedication and leadership among our Nation's TAGs. I 
congratulate you for so many long years; 44 years is a long, 
long time. And you will be missed.
    I have a question for you, General. Can you comment on the 
progress that is being made in developing the requirements for 
Title 32 missions? The Congress has for more than 3 years now 
requested an update on the Title 32 mission requirements and we 
have seen absolutely nothing.
    One of the clear process problems with the fiscal year 2013 
Air Force budget was lack of incorporation of Title 32 
requirements. What more can we do to get this requirement 
identification done so that we can better assess the budget 
requests?
    General Lowenberg. Ranking Member Bordallo, if I had the 
answer to that I would be happy to serve another 44 years to 
work on that very project. It is something that we have been 
raising, in particular with the current and previous commander 
of U.S. Northern Command, because I believe that is the 
combatant command that has the responsibility for articulating 
the requirements for Title 32 utilization of this magnificent 
Army and Air Force that the Congress has resourced.
    I just came to this hearing from a couple of days with 
General Jacoby at Northern Command, and quite frankly I am very 
encouraged by his focus on requirements and his willingness to 
act as a combatant commander to articulate those requirements. 
I am optimistic that Congress will see some positive action in 
the months and years ahead.
    Ms. Bordallo. Very good. Very good, general. I will 
remember those words.
    General Miller, just a couple of quick questions. Can you 
outline for members of the committee what impact restoring the 
Air National Guard force structure in fiscal year 2013 will 
have on future years' budgets? What costs or issues can we 
expect to deal with in the future?
    General Miller. Ranking Member, thank you for the question.
    For fiscal year 2013, the costs of restoring all of the 
force structure as we are currently believing that it is 
Congress' intent to do is about $1.4 billion. If we were to be 
required to sustain the force structure just for the Air 
National Guard throughout the FYDP [Future Years Defense 
Program], that is about $4.4 billion, roughly, and that would 
account for putting the aircraft back into all of the normal 
servicing and modernization and upkeep that we do as a service.
    The consequences of that, if those resources were not 
provided to us, is obviously that we either have to reduce 
further the Active Duty force structure or reduce modernization 
programs that would result in recapitalization of both Guard 
and Active force structure and Reserve force structure and/or 
some of the advanced capabilities that we need to deal with 
evolving threats.
    So those are things along the lines of upgraded radars and 
electronic warfare capability, various space capabilities that 
are necessary. Essentially, it would be a difficult challenge 
for us without the resources.
    Ms. Bordallo. Thank you. Thank you, General. And one final 
question. In your professional opinion, what utility is of an 
Air Force commission as proposed by the Senate Armed Services 
Committee?
    General Miller. Ma'am, we view the trends that we have 
started with the Council of Governors, as General Lowenberg 
just mentioned, with U.S. Northern Command, putting additional 
emphasis on identifying those Title 32 requirements. The 
Department of Defense and the Department of the Air Force have 
a very well understood and very well practiced way of taking 
into account combatant commander requirements when they are 
expressed as combatant commander requirements.
    So that channel of presenting requirements will inform our 
decisionmaking perhaps better than it has been in the past. The 
ongoing dialogue with the Council of Governors, which at this 
point I think it is fair to say that there is work on a 
statement of principles for how that work will best proceed and 
how the governors and the Department of Defense can best inform 
each other, that work is positive.
    We are concerned that a commission, particularly with the 
timing that it is proposed to have, would have a very difficult 
job ahead of it to go through the levels of detail required in 
the time allotted and that the decisionmaking that would come 
out of such a commission would be very difficult to reflect in 
the 2014 budget and could require us to hold airmen and units 
and families and States and a whole lot of other folks in a 
very uncomfortable state of suspended animation for an extended 
period of time.
    And so while we will work with, absolutely, a commission if 
the Congress should specify that that is going to happen, it is 
our belief that we as a total force team, Department of 
Defense, working with the governors through the council, can do 
that work.
    Ms. Bordallo. Thank you, General, for that information.
    And I yield back, Mr. Chairman.
    Mr. Forbes. Gentleman from Iowa is recognized for 5 
minutes.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thanks, both of you, for your service. I appreciate it more 
than you know. And our own adjutant general back there, General 
Orr, I really, really appreciate his great service as well.
    I have a couple kids who are in the Marines, so that brings 
it home even more. They have been deployed. And so thank you so 
much.
    I guess I have a lot of frustration, which I expressed 
earlier when the governor was here, when our governor was here, 
and expressed by Congressman Latham and by our chairman and 
ranking member, number of folks, a lot of frustration over the 
transparency of the process, a lot of frustration over the lack 
of communication, especially with the governors.
    I have made very clear over the course of the past several 
months that I am deeply concerned and really pretty baffled by 
the proposal to make irreversible cuts to the Air National 
Guard, which would bear about 59 percent of the total aircraft 
cuts in the budget request.
    And under that request, they would see almost--they would 
almost see most of their personnel reductions also occur in 
2013, which provides really little leeway to reverse course 
from a strategy that is meant, recall, to be reversible.
    I am, frankly, distressed, as I said, by the lack of clear 
data and analysis showing that this really is the best decision 
for our security, for our ability to respond to emergencies at 
home, something we in Iowa know very well over the course of 
the last 5 years, 4 to 5 years.
    And just as important in all this for the taxpayers. The 
taxpayers demand to know why decisions are being made. This is 
a democracy.
    Sometimes I kind of sound like a Pollyanna when I am 
talking about these things. I taught at a college before I got 
here. Now I am in the real world of politics.
    But I am a Congressman, and my job is oversight in no small 
measure, and to make sure that when folks make decisions that 
are going to affect people, not just in Iowa, but all around 
the country, that we actually have the data that we need and 
that the analysis has been carried out.
    It is up to us in the legislative branch to hold folks in 
the administration, the executive branch accountable in that 
sense. Again, I appreciate what you are doing. As Chairman 
Forbes said, this is not meant to be a slighting to you folks 
or any of that. But do take that message back, as he said.
    This is an important function that we serve in Congress. 
Yes, we do and say many of the things we do for our 
constituents, but it is about national security and it is about 
taxpayers as well.
    So I guess I want to direct my first question to General 
Lowenberg and ask you if you can share some thoughts, in 
addition to what you have already shared with us as an adjutant 
general, your perspective on the National Guard's ability to 
quickly mobilize.
    And I will preface that by saying that in February I asked 
the Air Force leadership if there had ever been a time over the 
last decade that the Air National Guard was not able to respond 
to a mission requirement or a request for deployment, and I was 
told quite unequivocally that there had not been a situation 
like that. But I am also concerned not just about deploying 
overseas, but I am concerned about domestic deployments as 
well.
    General.
    General Lowenberg. Congressman, when Iraq invaded Kuwait I 
was the Air National Guard commander in Washington State. We 
had air crews on the ramp, on the aircraft, waiting to flow 
forward even before the vocal requests starting coming through 
the channel.
    I can tell you that the Air National Guard has been engaged 
in Desert Shield, Desert Storm, enforcement of the no-fly zones 
for nearly a quarter of a century. The total Air Force has had 
the full operational contribution of the Air National Guard, 
without mobilization, with rare exception. Very small, low 
density, high demand units like security police, have been 
mobilized in the last 1 or 2 years.
    But for nearly a quarter of a century the Air National 
Guard has responded by volunteerism engaging in every mission 
asked of it by the total force. And I know that the National 
Guard Bureau has proffered on numerous occasions to take an 
even larger share. So accessibility is not an issue in my life 
experience.
    Mr. Loebsack. And, General Miller, following up on that, 
you know, we hear sort of generally about, you know, the mix of 
Active Duty versus Reserve or Guard moving forward, given our 
strategy, given the resources that we have and all the rest.
    But I do not know that we have ever been really offered a 
clear answer as to that mix and how that mix is arrived at. You 
mentioned earlier that Active Duty had taken big hits over the 
previous 10 to 15 years.
    Now, I am not--I do not think that you are making that as--
that that is your argument as to why then we ought to be doing. 
I understand that. But that impression could be left with some 
people. So, you know, feel free to clear that up. But, I mean, 
saying that is all well and good, but then what goes into this, 
what are the factors that are used when you are trying to 
determine, when the Air Force is trying to determine the proper 
mix between the Reserve Components and the Active Duty 
Components.
    And if there is a longer answer to be had in writing, I 
would love to see it as well.
    General Miller. Congressman, thank you. And I think we will 
submit a more complete discussion of that for the record. But I 
appreciate your question, and I think it hits some very, very 
important considerations.
    First of all, I would agree with General Lowenberg. The 
Guard has performed superbly over many, many years, and that is 
not the issue. I personally, the year I spent in Afghanistan 
out of my 20 or 21 colonel-group commanders, at that time much 
of our force structure and 18 out of those 20 or 21 group 
commanders were Guard and Reserve colonels, and they did 
brilliant work and so did the men and women that they brought 
with them.
    Mr. Loebsack. I might just say, I have flown on a lot of 
those C-130s--Kentucky group, all kinds of----
    General Miller. Yes, sir. Absolutely. So that is not the 
issue.
    The issue is this. Because it takes volunteerism, in many 
cases, to assemble a Guard capability, or because of the 
legitimate demands of the employers of guardsmen and 
reservists, the rotations may be shorter than 179 days. They 
may be 60.
    That is not necessarily a problem, but as the Active Duty 
force gets smaller, our margin for error and the number of 
times over the foreseeable future that we may have to call on 
the Guard or Reserve to fill requirements that we have will 
grow as our Active force gets smaller.
    And so our concern--you asked what the factors were. One of 
them is force sustainability. So for example, as we get a 
smaller Active force, the symbiotic relationship, much of the 
Guard's experience comes from Active Duty members who serve on 
Active status and then elect to become members of the Guard.
    As the Active force gets smaller, that experienced input 
will get smaller. We are not at the point where we can give a 
quantitative answer to where that becomes a real problem, but 
we know that the margins are getting smaller.
    And so in the near term, our choices for the Active Duty 
mix were sustainability. They were driven by the deployment 
rates, particularly in some of the most heavily tasked 
platforms. And we elected to ensure that we could sustain the 
foreseeable, the projected Active tempo without taking Active 
Duty folks below the one-to-two policy and without having to 
depend on volunteerism that involves multiple squadrons, which 
sometimes do have to be supplemented, particularly for Guard 
and Reserve fighter operations.
    We have had to supplement those operations with Active Duty 
maintainers. So this is a very delicate balance and it is one 
of the reasons that we think it is extremely important for us 
to continue working as we have with the Air National Guard, 
with the National Guard Bureau, to understand those dynamics, 
to better present that case as we go forward in fiscally 
challenged times that are ahead of us.
    Mr. Loebsack. I appreciate that.
    Thank you, Mr. Chairman.
    I do look forward to something more extensive in writing. 
If you could provide that, that would be great, especially 
given that the Guard and Reserve have never been--they have 
always been able to answer the call. And if there is a fear 
that that will not happen in the future, I would like to know 
why that is the case, and specifically how you come to that 
conclusion.
    Thank you. Appreciate it.
    [The information referred to can be found in the Appendix 
beginning on page 166.]
    Mr. Forbes. Gentlemen, both of you have heard virtually 
every member of this subcommittee praise the two of you for 
your service and your demeanor, how you are handling this. We 
understand this is not a problem that you brought upon 
yourselves.
    We also understand that this did not happen because we 
created the best strategy and then we had the debate of how to 
implement that strategy, and then we came up and said, ``This 
is the budget we need to do that.''
    It came about because we have had a sea-change where we 
have pulled numbers out of the air and said, ``Here is the 
budget; now create a strategy to meet that budget.'' And now we 
have put you two in warring with each other about how you 
divide those dollars up. And we should never have put you in 
that position, and we are fighting on this subcommittee to get 
you out of that position. We just want you to know.
    I am going to give three questions that I do not expect you 
to answer now. I would just like for you to give me an answer 
on the record. The first one is we know that the Senate is 
proposing language in its version of the fiscal year 2013 NDAA 
that would effectively stop the transfer, divestment or 
retirement of all Air National Guard and Air Force Reserve 
aircraft not only in fiscal year 2013, but also in previous 
fiscal years 2010, 2011, and 2012. If both of you could just 
get back to us in writing what you think the impact of that 
would be. I think it is important that we know that.
    [The information referred to can be found in the Appendix 
on page 165.]
    Mr. Forbes. The second thing, General Miller, with the 
assumption that Congress may freeze all force structure 
retirements and divestments in fiscal year 2013 and include the 
associated funding to support, what is the likelihood that the 
Air Force would plan in the fiscal year 2014 budget and beyond 
to keep the force structure at fiscal year 2012 levels? If you 
could just answer that for us in writing.
    [The information referred to can be found in the Appendix 
on page 166.]
    Mr. Forbes. And then General Lowenberg, if you could tell 
us, the subcommittee understands that as a counter-proposal to 
the alternative proposal that the Council of Governors 
submitted to the Air Force, the Secretary of Defense chose to 
offer retiring 24 fewer C-130 aircraft to meet airlift needs of 
State governors.
    Now, if you could tell us, in your view, why was the 
Secretary's offer of 24 C-130s rejected? And how could the 
counter-proposal have been improved to an acceptable level?
    [The information referred to can be found in the Appendix 
on page 166.]
    Mr. Forbes. And then one final thing; General Miller, is 
the Air Force now making any plans based upon what they think 
the language will be from the Senate and the House in the NDAA 
bill?
    General Miller. Mr. Chairman----
    Mr. Forbes. Do you want me to be more clear on that?
    General Miller. Yes, sir.
    Mr. Forbes. Okay. There--you know what the language is from 
this authorization that came out of the House. We know there is 
a discussion in the Senate for fiscal year 2013 regarding 
freezing--not just 2013, but 2010, 2011 and 2012. Is the Air 
Force taking any action now on any plans related to that? Are 
they in a wait-and-see mode to see what actually comes out in 
the language?
    General Miller. Sir, we are planning assuming that 
previously approved force structure actions are consummated and 
that the 2013 proposals will be as well. Our planning 
assumptions are that that would happen for the long-term 
planning. And obviously----
    Mr. Forbes. The planning is that the law is going to stay 
in place as it is?
    General Miller. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 166.]
    Mr. Forbes. I have 60 seconds left. I am going to yield 
that to Mr. Latham for one additional question, if he could.
    Mr. Latham. Thank you very much, Mr. Chairman.
    And I just had a question about the reversibility of the--
of what is happening, like the 132nd Air Wing. You have got 
pilots that have 2,500 hours of experience, are combat tested. 
They have been in different theaters time after time. You have 
got maintenance people that have, you know, 10, 11 years on 
average of experience in the regular Air Force. You are 
probably talking 1 to 2 years of experience as far as 
maintenance.
    If, in fact, you lose that capability, is that reversible?
    General Miller. Congressman, I would say in general terms, 
those personnel types of action are reversible to some extent. 
No unit ever is reconstituted instantly with all the same 
capability. But we found, for example, after 9/11, that 
recalling aviators to Active Duty with some spin-up training, 
they were absolutely capable of performing the same kinds of 
missions they were when they were serving actively.
    So it is our intent to comply, obviously, with 
congressional direction on reversible actions. And so we are 
not anticipating units standing down until we have a clear 
signal that that is in fact acceptable.
    Mr. Latham. So does General Lowenberg have any comment on 
that, if that is reversible?
    General Lowenberg. Yes, reversible only to the extent that 
you can recruit new members to a new unit with a new mission. 
Quite frankly, you cannot bring those people back effectively. 
That is our big concern.
    Mr. Latham. Once they are gone, they are gone. Right?
    Mr. Forbes. Our time has expired.
    Anybody can submit additional questions for the record if 
they want to.
    I made both of you a promise at the beginning, and also 
talking to you before, if there was anything you wanted to add 
that you felt you needed to clarify, put in the record 
beforehand, you can either do it now on the record or submit it 
in writing.
    And let me start with you, General Miller. Anything else 
that you would like to add that you feel we have left out or 
you want to clarify for us?
    General Miller. No, Mr. Chairman. I appreciate the 
opportunity to entertain your questions and speak for the Air 
Force. And I look forward to continuing to work with my 
teammates in all the components to give the taxpayer the best 
we possibly can.
    Mr. Forbes. Well, thank you.
    And General, if you do determine that, please feel free to 
submit it for the record.
    General Lowenberg.
    General Lowenberg. Mr. Chairman, you very eloquently 
articulated the frustration that has been felt by the members 
of this subcommittee and by Members of Congress. And it is a 
frustration that the National Guard has felt for some time.
    It is the frustration that led this Congress to create a 
commission on the National Guard and Reserves and, as I said in 
my formal testimony, I believe the benefits of that 
congressional action are still resonating throughout Congress 
and throughout the defense community.
    I am struck by the fact that the challenges confronted by 
the Air Force are not unlike the challenges confronted by the 
Army. And yet the governors were very clear in commending the 
Secretary and Chief of Staff of the Army for having an open and 
transparent process. The Army did not require nondisclosure 
agreements as it puts its fiscal year 2013 budget together.
    So I think because the communication with the governors, 
quite frankly, has not happened to date in any meaningful way, 
in a very superficial way--there have been four meetings, but 
there has been a year in which the fiscal year 2013 budget was 
developed in which no Air Force leader attended any of the 
Council of Governors meetings--that the Congress would be well 
advised to support the creation of a commission on the 
structure of the Air Force.
    I believe that will have the same beneficial import and 
provide the kind of information Congress has been seeking and 
would be immensely helpful to you as you deal with the fiscal 
year 2013 and future year budgets. Thank you.
    Mr. Forbes. Thank you both. And the ranking member and I 
both are going to work to--we cannot create that commission, 
and that is going to be out of our hands to some degree--but 
one of the things we would like to do is work to make sure we 
get both of you guys sitting at a table again so we can have 
these discussions, which I think may be beneficial.
    And with that, thank you both for your service and for 
being here with us today.
    And we are adjourned.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]



======================================================================




                            A P P E N D I X

                             July 12, 2012

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 12, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5151.001
    
    [GRAPHIC] [TIFF OMITTED] T5151.002
    
    [GRAPHIC] [TIFF OMITTED] T5151.003
    
    [GRAPHIC] [TIFF OMITTED] T5151.004
    
    [GRAPHIC] [TIFF OMITTED] T5151.005
    
    [GRAPHIC] [TIFF OMITTED] T5151.006
    
    [GRAPHIC] [TIFF OMITTED] T5151.007
    
    [GRAPHIC] [TIFF OMITTED] T5151.008
    
    [GRAPHIC] [TIFF OMITTED] T5151.009
    
    [GRAPHIC] [TIFF OMITTED] T5151.010
    
    [GRAPHIC] [TIFF OMITTED] T5151.011
    
    [GRAPHIC] [TIFF OMITTED] T5151.012
    
    [GRAPHIC] [TIFF OMITTED] T5151.013
    
    [GRAPHIC] [TIFF OMITTED] T5151.014
    
    [GRAPHIC] [TIFF OMITTED] T5151.015
    
    [GRAPHIC] [TIFF OMITTED] T5151.016
    
    [GRAPHIC] [TIFF OMITTED] T5151.017
    
    [GRAPHIC] [TIFF OMITTED] T5151.018
    
    [GRAPHIC] [TIFF OMITTED] T5151.019
    
    [GRAPHIC] [TIFF OMITTED] T5151.020
    
    [GRAPHIC] [TIFF OMITTED] T5151.021
    
    [GRAPHIC] [TIFF OMITTED] T5151.022
    
    [GRAPHIC] [TIFF OMITTED] T5151.023
    
    [GRAPHIC] [TIFF OMITTED] T5151.024
    
    [GRAPHIC] [TIFF OMITTED] T5151.025
    
    [GRAPHIC] [TIFF OMITTED] T5151.026
    
    [GRAPHIC] [TIFF OMITTED] T5151.027
    
    [GRAPHIC] [TIFF OMITTED] T5151.028
    
    [GRAPHIC] [TIFF OMITTED] T5151.029
    
    [GRAPHIC] [TIFF OMITTED] T5151.030
    
    [GRAPHIC] [TIFF OMITTED] T5151.031
    
    [GRAPHIC] [TIFF OMITTED] T5151.032
    
    [GRAPHIC] [TIFF OMITTED] T5151.033
    
    [GRAPHIC] [TIFF OMITTED] T5151.034
    
    [GRAPHIC] [TIFF OMITTED] T5151.035
    
    [GRAPHIC] [TIFF OMITTED] T5151.036
    
    [GRAPHIC] [TIFF OMITTED] T5151.037
    
    [GRAPHIC] [TIFF OMITTED] T5151.038
    
    [GRAPHIC] [TIFF OMITTED] T5151.039
    
    [GRAPHIC] [TIFF OMITTED] T5151.040
    
    [GRAPHIC] [TIFF OMITTED] T5151.041
    
    [GRAPHIC] [TIFF OMITTED] T5151.042
    
      

    [GRAPHIC] [TIFF OMITTED] T5151.043
    
    [GRAPHIC] [TIFF OMITTED] T5151.044
    
    [GRAPHIC] [TIFF OMITTED] T5151.045
    
    [GRAPHIC] [TIFF OMITTED] T5151.046
    
    [GRAPHIC] [TIFF OMITTED] T5151.047
    
    [GRAPHIC] [TIFF OMITTED] T5151.048
    
    [GRAPHIC] [TIFF OMITTED] T5151.049
    
    [GRAPHIC] [TIFF OMITTED] T5151.050
    
    [GRAPHIC] [TIFF OMITTED] T5151.051
    
    [GRAPHIC] [TIFF OMITTED] T5151.052
    
    [GRAPHIC] [TIFF OMITTED] T5151.053
    
    [GRAPHIC] [TIFF OMITTED] T5151.054
    
    [GRAPHIC] [TIFF OMITTED] T5151.055
    
    [GRAPHIC] [TIFF OMITTED] T5151.056
    
    [GRAPHIC] [TIFF OMITTED] T5151.057
    
    [GRAPHIC] [TIFF OMITTED] T5151.058
    
    [GRAPHIC] [TIFF OMITTED] T5151.059
    
    [GRAPHIC] [TIFF OMITTED] T5151.060
    
    [GRAPHIC] [TIFF OMITTED] T5151.061
    
    [GRAPHIC] [TIFF OMITTED] T5151.062
    
    [GRAPHIC] [TIFF OMITTED] T5151.063
    
    [GRAPHIC] [TIFF OMITTED] T5151.064
    
    [GRAPHIC] [TIFF OMITTED] T5151.065
    
    [GRAPHIC] [TIFF OMITTED] T5151.066
    
    [GRAPHIC] [TIFF OMITTED] T5151.067
    
    [GRAPHIC] [TIFF OMITTED] T5151.068
    
    [GRAPHIC] [TIFF OMITTED] T5151.069
    
    [GRAPHIC] [TIFF OMITTED] T5151.070
    
    [GRAPHIC] [TIFF OMITTED] T5151.071
    
    [GRAPHIC] [TIFF OMITTED] T5151.072
    
    [GRAPHIC] [TIFF OMITTED] T5151.073
    
    [GRAPHIC] [TIFF OMITTED] T5151.074
    
    [GRAPHIC] [TIFF OMITTED] T5151.075
    
    [GRAPHIC] [TIFF OMITTED] T5151.076
    
    [GRAPHIC] [TIFF OMITTED] T5151.077
    
    [GRAPHIC] [TIFF OMITTED] T5151.078
    
    [GRAPHIC] [TIFF OMITTED] T5151.079
    
    [GRAPHIC] [TIFF OMITTED] T5151.080
    
    [GRAPHIC] [TIFF OMITTED] T5151.081
    
    [GRAPHIC] [TIFF OMITTED] T5151.082
    
    [GRAPHIC] [TIFF OMITTED] T5151.083
    
    [GRAPHIC] [TIFF OMITTED] T5151.084
    
    [GRAPHIC] [TIFF OMITTED] T5151.085
    
    [GRAPHIC] [TIFF OMITTED] T5151.086
    
    [GRAPHIC] [TIFF OMITTED] T5151.087
    
    [GRAPHIC] [TIFF OMITTED] T5151.088
    
    [GRAPHIC] [TIFF OMITTED] T5151.089
    
    [GRAPHIC] [TIFF OMITTED] T5151.090
    
    [GRAPHIC] [TIFF OMITTED] T5151.091
    
    [GRAPHIC] [TIFF OMITTED] T5151.092
    
    [GRAPHIC] [TIFF OMITTED] T5151.093
    
    [GRAPHIC] [TIFF OMITTED] T5151.094
    
    [GRAPHIC] [TIFF OMITTED] T5151.095
    
    [GRAPHIC] [TIFF OMITTED] T5151.096
    
    [GRAPHIC] [TIFF OMITTED] T5151.097
    
    [GRAPHIC] [TIFF OMITTED] T5151.098
    
    [GRAPHIC] [TIFF OMITTED] T5151.099
    
    [GRAPHIC] [TIFF OMITTED] T5151.100
    
    [GRAPHIC] [TIFF OMITTED] T5151.101
    
    [GRAPHIC] [TIFF OMITTED] T5151.102
    
    [GRAPHIC] [TIFF OMITTED] T5151.103
    
    [GRAPHIC] [TIFF OMITTED] T5151.104
    
    [GRAPHIC] [TIFF OMITTED] T5151.105
    
    [GRAPHIC] [TIFF OMITTED] T5151.106
    
    [GRAPHIC] [TIFF OMITTED] T5151.107
    
    [GRAPHIC] [TIFF OMITTED] T5151.108
    
    [GRAPHIC] [TIFF OMITTED] T5151.109
    
    [GRAPHIC] [TIFF OMITTED] T5151.110
    
    [GRAPHIC] [TIFF OMITTED] T5151.111
    
    [GRAPHIC] [TIFF OMITTED] T5151.112
    
    [GRAPHIC] [TIFF OMITTED] T5151.113
    
    [GRAPHIC] [TIFF OMITTED] T5151.114
    
    [GRAPHIC] [TIFF OMITTED] T5151.115
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 12, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5151.116
    
    [GRAPHIC] [TIFF OMITTED] T5151.117
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 12, 2012

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    General Lowenberg. House and Senate provisions sustaining FY12 
funding, manpower and aircraft levels for the ANG for FY13 are 
essential to prevent irreversible damage to the Air National Guard. As 
the Subcommittee on Readiness knows, the House-passed FY2013 NDAA and 
the FY2013 NDAA reported by the Senate Armed Services Committee both 
reject Air National Guard force structure adjustments proposed in the 
Air Force FY13 budget request and authorize an additional $1.4 billion 
to cover the cost of deferring Air Force projected cost savings. These 
congressional actions are essential to preserve the Air National 
Guard's domestic and global defense capabilities and are precisely what 
the nation's Governors and other elected officials have requested of 
Congress--and continue to request--in light of the Air Force decision 
to terminate communication with the Council of Governors on PB13.
    Secretary Panetta's June 22, 2012 commitment to congressional 
leaders affirming there will be no implementation of proposed FY13 
force structure changes until further action by Congress and directing 
the Air Force ``to suspend aircraft transfers and retirements 
previously scheduled for implementation in FY 2012'' is also a welcome 
strategic pause, as is the Senate Armed Services Committee's proposed 
Commission on the Structure of the Air Force.
    I agree with the Governors' support of the Senate proposals and 
believe an informed assessment by an independent Commission on the 
Structure of the Air Force would be of immense assistance to Congress 
in unraveling current Air Force budget proposals and assuring a 
sustainable, objective and informed process for Air Force budget 
decisions in FY14 and beyond.
    As inferred in Chairman Forbes' question, however, suspension of 
FY10, 11 and 12 transfers will have an impact on previously approved 
force structure moves. I believe the objective, therefore, should be to 
preserve a ``dynamic status quo'' for previously announced FY10, 11 and 
12 transactions while Congress develops and undertakes final action on 
its 2013 National Defense authorization and appropriations legislation. 
A dynamic status quo would permit continued implementation of the vast 
majority of uncontested FY2010, 11 and 12 transactions while suspending 
the much smaller number of contested transactions that would be 
difficult, costly or impossible to reverse.
    I affirm what I stated in my formal testimony:
    ``Not all pending and unexecuted FY2010, 2011 and 2012 Air Force 
and Air National Guard force structure changes are or should be points 
of contention between the Air Force and the several States and 
territories. Many pending actions are supported by all interested 
parties. With that in mind, Governors and Adjutants General agree that 
a process should be established to proceed with proposed FY2010, 2011, 
2012 (and future FY2013 and FY2014) transactions by concurrence of all 
affected parties while Congress studies the Air Force FY2013 and FY2014 
budget proposals and awaits the collective review and recommendations 
of the Commission on the Structure of the Air Force.
    The Council of Governors therefore supports any as-yet-unexecuted 
FY2010, FY2011 or FY2012 Air National Guard force structure, mission or 
manpower changes that are approved by the Department of Defense, the 
Department of the Air Force, the National Guard Bureau and the Governor 
of each State affected by the proposed transaction. For example, the 
Council of Governors supports implementation of the proposed transfer 
of C-130s from the Tennessee Air National Guard to the Puerto Rico Air 
National Guard provided the transfer of equipment and all related 
arrangements are approved by the Department of Defense, the Department 
of the Air Force, the National Guard Bureau, Puerto Rico Governor 
Fortuno and Tennessee Governor Haslam. There are many other examples of 
uncontested Air Force and Air National Guard transactions and force 
structure proposals. Such matters can be coordinated with congressional 
staff and the concurrence of the Council of Governors and the Governors 
of all affected states can be documented in whatever manner is 
acceptable to Congress and all of the affected parties.''
    A process like the one I've outlined herein would preserve a 
dynamic status quo and facilitate the timely transition from C-5As to 
C-17s/C-5Ms, previously planned retirements of older C-130s, and 
transfers of aircraft to backfill missions and aircraft retirements 
that are supported by all affected parties. [See page 35.]
    General Miller. Although the Senate language only identified 
aircraft from the Air National Guard and Air Force Reserve, the 
inability to execute these transfers, divestments, or retirements from 
previous fiscal years has operational impacts across the Total Force. 
These impacts include preventing the Air National Guard from replacing 
aging C-5A and C-130E aircraft and driving the Air Force to maintain 
multiple weapon system configurations at a single location which delays 
the Air Force from capitalizing on maintenance efficiencies and reduced 
costs. These delays impact our military capability and readiness, while 
introducing uncertainty in future missions and training schedules for 
affected units and the associated Airmen and families. They will also 
delay the Air Force's ability to reach the level of budget reductions 
mandated in the 2011 Budget Control Act.
    Absent funding provided for this purpose by the Congress for FY13, 
sustaining any restored force structure would inevitably impact 
readiness, increase the potential for a hollow force, and produce a 
corresponding ripple effect on the viability of the Air Force FY14 POM 
submission. The proposed Senate language affected 150 aircraft 
transfers and 98 aircraft retirements programmed in Fiscal Years 2010, 
2011, and 2012. The current estimate to maintain those aircraft through 
FY13 is $255M. Based on guidance received from the Senate committees, 
we anticipate approval to move forward on 49 of the transfers and 58 of 
the retirements. The potential fiscal impact of sustaining the 
remaining retirements and transfers through fiscal year 2013 and the 
FYDP are still being analyzed. The current estimate for the restoral of 
all FY13 PB force structure actions is at least $8.7B across the FYDP. 
[See page 35.]
    General Miller. Our assumptions for Fiscal Year 2014 and beyond are 
based upon the Fiscal Year 2013 President's Budget. If the Congress 
were to approve legislation which restores force structure reductions 
in the FY13 budget submission, we will make adjustments. If funded for 
one year, then depending on other events in our fiscal future (e.g. 
further Budget Control Act actions), we will have to address force 
structure funding on a year-by-year basis. [See page 36.]
    General Lowenberg. I believe the counter proposal was rejected 
because it failed to address the governors' primary concerns and 
offered nothing more than a stop-gap measure for addressing shortfalls 
in state organic theater airlift capabilities. It left intact the Air 
Force sweep of fighter aircraft from less costly Air National Guard 
units to vastly more expensive active duty units and preserved 
disproportionate FY13 Air National Guard manpower cuts. It was also 
predicated on the Air Force planning assumption that the active force 
is ``as small as it can ever possibly be''--a core assessment that was 
outcome determinative throughout the Air Force FY13 budget process--and 
would have given the nation a reduced air combat capability at a higher 
cost than proposals advanced by the governors.
    The 24 C-130s in the Secretary's proposal were described in our 
previous discussions with the Secretary and Chief of Staff of the Air 
Force as the ``newest of the oldest'' C-130s in the Air Force inventory 
and Air Force leaders persisted in describing them as excess to Total 
Force requirements, were unable to identify funding sources for 
assuring their airworthiness and were unwilling to assure they would 
even propose funding them beyond FY13.
    In my view, the nation's Governors and Adjutants General are 
committed to national security decisions that preserve maximum combat 
force structure and assure military surge capacity as well as global 
and homeland defense flexibility while America gets its economic house 
in order. In other words, I believe they're dedicated to getting the 
greatest national defense ``bang'' for the taxpayers' ``buck'' and they 
didn't see those values reflected in the Air Force proposals. [See page 
36.]
    General Miller. Our assumptions for Fiscal Year 2014 and beyond are 
based upon the Fiscal Year 2013 President's Budget. If the Congress 
were to approve legislation which restores force structure reductions 
in the FY13 budget submission, we will make adjustments. If funded for 
one year, then depending on other events in our fiscal future (e.g. 
further Budget Control Act actions), we will have to address force 
structure funding on a year-by-year basis. [See page 36.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. LOEBSACK
    General Miller. The Air Force routinely reevaluates and refines its 
AC/RC mix using an institutionalized process known as the Total Force 
Enterprise Review Process. This process includes representatives of all 
Air Force components (Regular Air Force, Air Force Reserve and Air 
National Guard) in an enterprise-level appraisal of Air Force 
requirements and resources, which applies mission and organizational 
analysis to support senior leader decisions. Potential future Total 
Force mission contributions by each component are first analytically 
optimized with respect to five major factors: 1) total strategy-based 
war-fighting and training demand, 2) projected manpower resources, 3) 
projected equipment inventory, 4) cost, and 5) deployment policy. The 
resulting zero-sum AC/RC mix is further refined with Force Composition 
Analysis focused on discrete weapon systems and career fields. This 
refinement delivers insights regarding our ability to perform the 
mission with a range of AC/RC mixes, enabling Air Force leadership to 
choose from several reasonable Force Mix Options within individual 
mission areas. Senior leader guidance resulting from these choices then 
informs the Air Force Corporate Structure which in turn makes debated 
recommendations back to Air Force leaders for reallocation of funding, 
equipment, and manpower resources across the Total Force. [See page 
35.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. PALAZZO
    General Miller. With regard to the hangar facility question for 
Dobbins ARB, a multi-functional site survey will be accomplished to 
complete an in-depth and detailed plan to execute the basing action. 
However, our initial review of facilities requirements at Dobbins ARB 
indicates modifications to existing hangars can be accomplished without 
MILCON funding. [See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 12, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. In order to gain a better understanding regarding the 
level of communication and coordination that occurred between the 
Department of Defense and States' governors, what inputs were requested 
by the Air Force and National Guard Bureau from the Council of 
Governors and the States' Adjutant Generals prior to release of the 
FY13 President's Budget?
    Governor Branstad. Thank you for your inquiry regarding 
communications between the Department of Defense (DOD) and the Council 
of Governors (Council) regarding the FY2013 budget proposal. Governors 
and our Adjutants General were not informed of the budget proposal and 
its disproportionate impact on the National Guard in advance of its 
public release in February 2012 (aircraft reductions) and March 2012 
(manpower reductions).
    As commanders-in-chief of the National Guard, we were frustrated to 
read about the proposed reductions in the media. We understand and 
appreciate the need to reorganize and restructure the armed forces to 
meet new threats and realities. We were concerned, however, by the U.S. 
Air Force's failure to consider the impact of such cuts on governors' 
ability to rely on the National Guard during emergencies. The National 
Guard provides critical capabilities including communications, medical 
response and firefighting that are regularly utilized during 
emergencies across the country. Since the beginning of FY2012, 
governors have used the Guard in response to more than 130 events 
ranging from hurricanes to wildfires to critical infrastructure 
protection and explosives disposal.
    Mr. Forbes. As co-chairman of the Council of Governors, what impact 
to Homeland Security, Civil Support, Humanitarian Assistance and 
Disaster Response would occur with the Air Force's proposed reduction 
of 21 F-16 and 102 A-10 aircraft?
    Governor Branstad. The Air Force's proposed reduction of F-16 and 
A-10 aircraft would have stripped states not only of these aircraft but 
also the corresponding personnel and affiliated support capabilities 
such as communications and medical response. These capabilities have 
proven critical to our ability to respond to a wide variety of 
emergencies and would have a significant impact on state, regional and 
national preparedness.
    In many instances, these capabilities are incorporated into state 
emergency response plans that have been developed and coordinated with 
civilian emergency responders. Their unexpected loss would upend years 
of planning and deprive states of capabilities critical to saving lives 
and protecting the public.
    Mr. Forbes. How was the Council of Governors' alternative proposal 
to the Air Force's FY13 budget request developed and what are the key 
takeaways in your view of how the alternative proposal meets both 
Homeland and National Security requirements better than what the Air 
Force originally proposed?
    Governor Branstad. Following the Council of Governors meeting with 
Secretary Panetta on February 27, 2012, my co-chair, Governor Chris 
Gregoire of Washington state, and I directed our Adjutants General 
(TAGs)--MG Tim Orr and MG Tim Lowenberg--to prepare an alternative Air 
National Guard budget concept that could be discussed with Air Force 
leaders as a way of initiating the requested negotiations. By close of 
business on March 1, 2012 (four days after the Council meeting), the 
TAGs had presented the budget concept to Air Force leaders through the 
National Guard Bureau.
    It is important to note that the budget concept was not our ideal 
solution because it included several assumptions that were not ideal 
for states, but that had been identified by the Air Force as necessary 
for any alternative proposal. In addition, the timeline did not allow 
for review by all states--a practice the Council prefers to observe for 
major negotiations.
    The Council's budget concept was a comprehensive alternative that 
would have decreased operational risk by increasing surge capacity, 
preserving the experience and technical expertise of the Air National 
Guard at a greatly reduced life-cycle cost, and exceeded targeted 
savings. This alternative would have ensured a more balanced approach 
to reductions between the active forces and the Air National Guard and 
would have preserved the necessary personnel and aircraft to respond to 
domestic emergencies throughout the country.
    In response to the Council's budget concept, the Air Force proposed 
to retain 24 C-130 aircraft in the Air National Guard--a proposal that 
was later affirmed by Secretary Panetta and included in the revised Air 
Force budget proposal submitted to Congress in April. While we 
appreciated the recognition of governors' need for additional airlift 
capacity, this proposal failed to recognize the Air National Guard's 
importance to our national defense and its ability to sustain military 
power and capabilities at a fraction of the cost to taxpayers. As 
Governor Gregoire and I articulated in the attached letter to Secretary 
Panetta dated April 27, 2012, the offer to retain 24 C-130 aircraft 
failed to address our concerns regarding the disproportionate impact on 
the Air National Guard, including the loss of manpower and fighter 
aircraft.
    [The letter referred to can be found in the Appendix on page 161.]
    Mr. Forbes. The subcommittee understands that as a counter-proposal 
to the alternative proposal that the Council of Governors submitted to 
the Air Force, the Secretary of Defense chose to offer retiring 24 less 
C-130 aircraft to meet airlift needs of State governors. Why was the 
Secretary of Defense's counter-proposal insufficient in the view of the 
Council, and how could have the counter-proposal been structured to an 
acceptable level?
    Governor Branstad. As discussed in the response to the previous 
question, the proposal to retain additional C-130 aircraft fell short 
of addressing our concerns because it failed to leverage the Air 
National Guard's cost-effectiveness and did not address our concerns 
regarding manpower and the loss of fighter aircraft. When the proposal 
was first offered by Air Force Secretary Donley and Air Force Chief of 
Staff General Schwartz in March, Governor Gregoire and I wrote to Air 
Force leadership regarding our lingering concerns. In that letter 
(attached) we proposed that the Air Force consider more cost-neutral 
options for cross-leveling or reallocating programmed aircraft 
operations from the active service to the Air National Guard.
    [The letter referred to can be found in the Appendix on page 55.]
    Mr. Forbes. What recommendations would you make to improve the 
future coordination and collaboration regarding discussions of 
budgetary, requirements and force structure issues between the Council 
of Governors and the Department of Defense?
    Governor Branstad. The Council is currently discussing ways in 
which greater information can be shared between states and the 
Department of Defense (DOD) throughout the development of the annual 
budget. Governors do not want to be involved in the day-to-day 
operational decisions of the armed services. We do expect DOD to adhere 
to federal statute and previous agreements between the Council and DOD 
that require advance notice and opportunity for discussion with 
governors and their Adjutants General regarding proposed policy and 
budget matters affecting the National Guard.
    One item in particular that we have raised with Department and Air 
Force leadership is the Air Force's use of non-disclosure agreements. 
The requirement that the Chief of the National Guard Bureau and the 
Director of the Air Guard sign non-disclosure agreements directly 
interferes with the National Guard Bureau Chief's statutory role as the 
conduit of information between states and the federal government. Had 
critical budget information been shared and discussed with governors 
and our Adjutants General throughout the development of the FY2013 Air 
Force budget, many of the problems that arose this year could have been 
avoided.
    Mr. Forbes. The 2010 Quadrennial Defense Review concluded that the 
effective use of the Guard and Reserves ``will lower overall personnel 
and operating costs, better ensure the right mix and availability of 
equipment, provide more efficient and effective use of defense assets, 
and contribute to the sustainability of both the Active and Reserve 
components.'' However, the force structure adjustments that the Air 
Force proposes increase the portion of force structure located within 
the Active Component under the new strategy. Given that this 
contradicts the 2010 QDR assessment of Guard and Reserve benefits, why 
is it that the Air Force chose to reorganize the force structure in 
this manner?
    General Miller. The end of combat operations in Iraq and impending 
changes in Afghanistan along with changing fiscal circumstances made it 
prudent for the administration to reassess the U.S. defense strategy. 
That assessment produced new strategic guidance that transitions the 
defense enterprise from a predominant emphasis on the last decade's 
conflicts, to one that rebalances the force for a broader spectrum of 
potential conflicts while advancing the important national security 
imperative of deficit reduction by significantly reducing defense 
spending. While the priorities of the new strategic guidance are 
similar to those of the 2010 Quadrennial Defense Review, a smaller Air 
Force, combined with likely demands on it in the new strategic 
environment, required a force structure realignment.
    The Air Force's Fiscal Year 2013 President's Budget submission 
focused on those Air Force capabilities and forces which support the 
new strategic guidance. Our decisions were shaped in part by a decrease 
in planned resources relative to Fiscal Year 2012 as a result of the 
Budget Control Act of 2011. Under these constraints, we produced an 
effective total force solution that supports the new strategic guidance 
and meets the requirements of the Budget Control Act.
    Mr. Forbes. The Senate Armed Services Committee is proposing 
language in its version of the FY13 NDAA that would effectively stop 
the transfer, divestment or retirement of all Air National Guard and 
Air Force Reserve aircraft not only in fiscal year 2013, but also in 
previous fiscal years 2010, 2011 and 2012. What impact would enactment 
of this language have on Guard and Reserve unit readiness across the 
country, as well as unit readiness of the Active Component?
    General Miller. If Congress does not provided sufficient funding 
for FY13 to sustain the Air National Guard and Air Reserve aircraft 
identified for transfer, divestiture, or retirement in the current and 
prior fiscal years; the resulting shortfall will inevitably undermine 
the Total Air Force's ability to sustain a restored force structure, 
impact readiness, increase the potential for a hollow force, and 
adversely affect the viability of the Air Force's FY14 POM submission.
    There were 149 aircraft transfers and 103 aircraft retirements 
authorized and programmed in Fiscal Years 2010, 2011 and 2012. Based on 
guidance received from the Senate committees, the Secretary of Defense 
approved the Air Force to move forward on 49 transfers and 58 
retirements. However, the Air Force was only able to complete 17 
transfers and 39 retirements before the end of Fiscal Year 2012. The 
proposed Senate language stands to affect the remaining 132 aircraft 
transfers and 64 aircraft retirements. The potential fiscal impact of 
sustaining the remaining retirements and transfers through Fiscal Year 
2013 and the FYDP are still being analyzed. The current estimated cost 
to restore all FY13 PB force structure actions, including required 
sustainment and modernization costs, is at least $8.7B across the FYDP.
    Mr. Forbes. The subcommittee understands that as a counter-proposal 
to the alternative proposal that the Council of Governors submitted to 
the Air Force, the Secretary of Defense chose to offer retiring 24 
fewer C-130 aircraft to meet airlift needs of State governors. How was 
the number of 24 C-130s derived and at which locations were those 
aircraft going to remain?
    General Miller. Based on consistent concerns expressed by 
individual Governors over time regarding lift for civil support and 
disaster response, and the Air Force's desire to provide force 
structure to meet state missions, one option presented to the Council 
of Governors' representatives would have restored 24 C-130 aircraft in 
3 ANG squadrons. In the absence of fully-articulated Title 32 airlift 
requirements, the number of aircraft was chosen with a view toward 
supporting a more even potential required distribution of airlift 
assets across the U.S. As such, there were no specific locations 
associated with the aircraft. Had the Council of Governors accepted our 
proposal, we would have sourced the aircraft from those planned for 
retirement, and worked with the Air National Guard to identify where 
they would have been assigned.
    Mr. Forbes. What are the comparable O&M (flying hour) costs and 
differences in expected service life if aircraft are operated and 
maintained by the Reserve Component versus the Active Component?
    General Miller. Based upon the Air Force Total Ownership Cost 
System (AFTOC) data for FY11, the reserve component average hours per 
assigned aircraft was 57% of the active component (varies depending 
upon the aircraft). The reserve component cost per assigned aircraft 
(part time pay and benefits with fewer hours per tail) was 61% of the 
active (also varies depending on the aircraft). The reserve component 
mostly flies for training while the active has training plus a much 
heavier operational workload. Absent prudent management, and given the 
hours per assigned aircraft differential, the aircraft assigned to the 
active component would reach the end of service life sooner (1.8 times 
sooner assuming the aircraft is active from the time of receipt to 
retirement). Aircraft are generally rotated between units to even out 
expected life across each fleet.
[GRAPHIC] [TIFF OMITTED] T5151.118


    .epsMr. Forbes. A baseline rationale that is heard many times for 
maintaining more force structure in the Reserve Component than the 
Active Component is because the Reserve Component is more cost-
effective than the Active Component. Do you agree that the Reserve 
Component is more cost-effective than the Active Component? How does 
steady-state operational tempo factor into the cost-effectiveness of 
the Reserve Component and how did operational tempo factor into the Air 
Force decision to increase force structure in the Active Component?
    General Miller. While the Reserve Component may be cost-effective 
in certain situations, it is imperative to consider all relevant 
factors that work together to ensure the Total Air Force is capable of 
fulfilling its mission of defending the nation over time. As the Air 
Force was driven to consider significant reductions in FY13, we 
carefully considered the forces assigned to the Active and Reserve 
Components and made choices that ensured the Total Force could fulfill 
the Air Force's wartime surge requirements as directed in the force 
sizing construct of the new strategic guidance. Our priorities include 
maintaining the balance between Active and Reserve Components required 
to fulfill continuing rotational requirements at deployment rates and 
personnel tempos that are sustainable for both the Active and Reserve 
Components; making sure the Active Component retains the recruiting, 
training, and operational seasoning base required to sustain the Active 
Air Force, Air National Guard, and Air Force Reserve into the future; 
and ensuring the Reserve Component remains relevant and engaged in both 
enduring and evolving missions.
    Projected operational tempo was, as it must be, factored into Air 
Force decisions on force structure. The Secretary of Defense`s deploy-
to-dwell goal is to ensure active duty forces deploy at a rate of no 
more than 1:2 (for example, 6 months deployed followed by 12 months at 
home base) and the reserve components mobilize (ANG and the Air Force 
Reserve) no more than 1:5. An active-reserve balance that requires 
either routine active duty deployment above the policy guideline, or 
involuntary mobilization of the reserve forces to avoid over-use of 
active forces, would add further stress on the total force and indicate 
that the Air Force does not have the proper balance.
    Mr. Forbes. We understand that the Air National Guard operates 16 
of 18 Aerospace Control Alert sites and that by 2013, retirements of F-
16 aircraft will affect 10 of 18 Aerospace Control Alert sites. What 
plans are in place to replace the retiring force structure for all of 
the Air National Guard's Aerospace Control Alert sites?
    General Miller. The Air Force is not retiring any force structure 
as a result of FY13 PB actions that would impact Aerospace Control 
Alert (ACA) sites. Furthermore, retirements of F-16 aircraft will not 
affect ACA sites as the retiring F-16s are not qualified to accomplish 
ACA missions.
    For the FY13 PB, NORAD is removing only the 24-hour ACA requirement 
at two locations--Duluth, MN and Langley, VA. Subsequently, the Air 
Force is changing the status of 128 Air National Guard military 
personnel authorizations from full time to part time Drill Status 
Guardsmen (DSGs). The number of aircraft and manpower authorizations 
will remain the same. NORAD still retains the authority to conduct ACA 
operations with these units at these and other locations should 
national security threats elevate and higher levels of readiness are 
implemented by the NORAD Commander.
    Mr. Forbes. What additional funds, if any, are needed in fiscal 
year 2013 and beyond to improve the equipment readiness of Air National 
Guard and Air Force Reserve Component units that do not currently meet 
standards?
    General Miller. As part of the Total Air Force, the Air Reserve 
Components are funded at the same readiness level as the regular Air 
Force. The Air National Guard and Air Force Reserve face known and 
validated equipment readiness shortfalls, as identified in the National 
Guard and Reserve Equipment Report. These shortfalls are $2.8B for the 
Air National Guard and $2.2B for the Air Force Reserves. While we 
carefully manage the cost of keeping Air Force equipment ready, the 
combination of cost growth in the defense sector, fiscal pressures and 
ongoing operations lead us to project increasing equipment readiness 
shortfalls.
    Mr. Forbes. Leadership within the National Guard professes that for 
only 6 percent of the Air Force's budget, the Air National Guard 
provides 35 percent of the Air Force's force structure capability. Does 
the Air Force agree or disagree? If the Air Force disagrees, what does 
the Air Force believe the percentages to be and how does the Air Force 
derive the percentage calculations?
    General Miller. The Air National Guard's assertion they account for 
6 percent of the cost and contribute 35 percent of the capability of 
the Air Force is based on factors involving accounting for the 
resources required to support the Air National Guard, characterizations 
of the total Air Force budget, and an interpretation of ownership of 
airframes is the same as ``percent of capability'' with which there is 
not total agreement.
    More specifically: The Air Force's ``Total Obligation Authority 
(TOA),'' is the amount of funds the Air Force has the authority to 
obligate throughout the life of the appropriation. The entire Air Force 
budget is comprised of what is commonly called ``blue'' and ``non-
blue'' TOA: the former is those resources under direct Air Force 
management (Blue) and the latter, those managed by other organizations 
(Non-Blue). Blue TOA includes both baseline and (at varying levels over 
the past decade) overseas contingency operations (OCO) funding, which 
can be blue or non-blue. Non-blue TOA is nondiscretionary and the Air 
Force has no control over it.
    For an apples-to-apples comparison of Air Force and Air National 
Guard operations funding, the most accurate standard for comparison is 
the ``blue'' baseline--i.e., the only resources the Air Force can 
allocate. Within those resources, the active Air Force budget bears the 
full cost of research, development, testing, and evaluation (RDT&E) and 
procurement (the National Guard does not, although the National Guard 
and Reserve Equipment Account as a separate appropriation does develop 
and procure specific types of equipment). Both components benefit from 
RDT&E and procurement, and the Air National Guard does not pay, so they 
are appropriate to remove from the operating cost baseline. When RDT&E 
and procurement are factored out as to compare operating costs fairly, 
for the Air Force FY13 baseline budget of $110.1 billion; the 
``denominator'' for comparison drops to $74.3 billion. Hence, the Air 
National Guard's total operations & maintenance (O&M) and military 
personnel funding of $9.1 billion represents about 12.2%, not 6%, of 
the Air Force's real operating costs. (Note: an additional $267 million 
in Air National Guard MILCON and Medicare comprise an additional 0.4 
percent of the baseline budget). With regard to the ``capability'' half 
of the ANG assertion, the Air National Guard does comprise roughly 35 
percent of the Air Force's total force structure for tactical airlift 
and aerial refueling--but the ANG represents a smaller percentage in 
other weapon systems, and a far smaller percentage than 35% in other 
areas such as nuclear deterrence, space operations and intelligence, 
surveillance and reconnaissance. In addition, even in those cases where 
the Air National Guard possesses 35% of the airframes of a particular 
type, the capability possessed is only equal to that same percentage 
when the aircraft are fully deployed. In that case, the operational 
cost is the same for ANG and active forces. But it is important to note 
that under ``steady state'' deployment policy, Guardsmen deploy at a 
maximum 1:5 deploy-to-dwell ratio, as compared to a 1:2 for active 
forces. Thus, in conditions short of full mobilization, Guard force 
structure can only be used at less than half the rate active duty force 
structure can be used--so it does not consistently provide 35% of the 
capability of the Air Force.
    In summary, Air National Guard more accurately accounts for 12.2% 
of the ``operating cost'' of the Air Force, and the ``35% of 
capability'' asserted is only true for a part of the Air Force's fleet, 
and not always true when it comes to operational deployment capability. 
Comparisons between components must be very precisely stated if they 
are to be useful, and this assertion oversimplifies and overstates a 
very complex cost/capability mix. The Air Force continues to value and 
depend on the inherent synergy of the Total Force Enterprise and is 
committed maximizing the contributions of all components to the Air 
Force's value to the nation.
    Mr. Forbes. Assume that the Department of the Air Force is tasked 
to fill a 6-month OCONUS deployment to an austere location, which 
already has in-place infrastructure, with capabilities and required 
personnel associated with 6 C-5s, 25 C-130s, 20 KC-135s, 10 C-17s, 54 
F-16s and 24 A-10s. Based on concepts of operation and employment used 
over the past 10 years, how much would it cost the Active Component 
only to fulfill the deployment for 6 months? How much would it cost to 
fulfill the deployment with Reserve Component forces only? Please break 
down costs and assumptions into specific categories that are used to 
derive the total cost for each component.
    General Miller. There is no significant difference in the cost to 
deploy Active Component (AC) versus Reserve Component (RC) aircraft. 
Additionally, AC and RC members of the same rank and seniority are paid 
at the same rates when deployed (i.e. serving on active duty). 
Therefore, assuming typical a six-month deployment is covered by AC or 
RC members who all deploy for the full 6 months, the cost of any AC-
only deployment is equal to or less than the cost of any like mission 
RC-only deployment, because RC members are typically more senior and 
therefore cost more than AC members; and the RC member may incur pre- 
and post-deployment mobilization time that, while necessary, does not 
directly fulfill the deployment tasking. Based on concepts of operation 
and employment over the past 10 years, wherein RC members have 
typically deployed for shorter periods than AC members, an RC 
deployment includes an additional cost to overlap multiple RC members 
to fill one deployed billet. For example, when RC members deploy 30 
days at a time, the cost of each deployed day remains the same, and the 
cost of overlap days in theater and of pre- and post-deployment days at 
home is multiplied by 6, to account for the 6 RC members needed to fill 
the same 180 days filled by a single AC member.
    Mr. Forbes. The subcommittee understands that the Air Force budget 
officers a steady-state requirement for overseas combat air forces 
(CAF) in the post-surge FY13-17 period that is 42% higher than the 
greatest number of CAF needed in simultaneous operations in Iraq and 
Afghanistan, and more than 68% higher than the number of CAF aircraft 
currently deployed overseas. How did Active Duty budget officers derive 
this increased requirement and what are the planning assumptions being 
used to determine steady-state requirements post-surge for both CAF and 
mobility air forces.
    General Miller. The planning assumptions being used to determine 
steady-state post-surge demand for the joint forces, including CAF and 
mobility forces are derived from Department of Defense strategic 
guidance and the associated joint planning scenarios developed by the 
department, led by OSD Policy, the Joint Staff, and OSD Cost Assessment 
and Program Evaluation for the purpose of joint force sizing. The 
Combatant Commands (COCOMs), Services and the National Guard Bureau 
participate in the development and the coordination of these joint 
scenarios.
    The 5 January strategic guidance, Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense, provides the basic 
force sizing guidance: ``The overall capacity of U.S. forces, however, 
will be based on requirement that the following subset of missions 
demand: counter terrorism and irregular warfare; deter and defeat 
aggression; maintain a safe, secure, and effective nuclear deterrent; 
and defend the homeland and support civil authorities.'' This includes 
the ability to conduct a large-scale combined arms campaign in one 
region while also being capable of denying the objectives of--or 
imposing unacceptable costs on--an opportunistic aggressor in a second 
region. The annual classified Defense Planning Guidance signed by the 
SECDEF provides details on the specific scenario combinations to be 
used for force sizing to meet the strategic guidance. These mid-term 
(2018) scenarios are informed by current Operations Plans and current 
force rotations, as well as future projected threat changes and inputs 
from the COCOMs on future projected presence requirements. The post-
surge numbers in the question come from those joint scenarios developed 
by OSD policy, using concepts of operations and forces developed and 
approved by the Joint Staff, and do not reflect independent estimates 
by U.S. Air Force budget officers.
    In addition, the post-surge numbers used to inform the FY13 
President's Budget do not exceed the ``greatest number of CAF needed in 
simultaneous operations in Iraq and Afghanistan.'' According to the 
U.S. Air Forces Central (then USCENTAF) classified report on OIF, 
Operation IRAQI Freedom--by the Numbers, 30 April 2003, the CAF fighter 
numbers deployed in support of OIF alone greatly exceeded the numbers 
used to inform FY13 President's Budget.
    Mr. Forbes. What is the ideal ratio between Active and Reserve 
Component force structure for combat, mobility and ISR forces to meet 
the operational tempo and requirements of the new defense strategic 
guidance, and how was the ratio modeled and validated?
    General Miller. There is no single ratio that describes an ideal 
mix of active and reserve component forces; rather, the ratio is the 
result of many factors and the Air Force has directed significant 
effort over the past several years to building and improving a 
transparent process to re-examine missions as circumstances change. 
Accordingly, the Air Force routinely reevaluates and refines its Active 
Component/Reserve Component (AC/RC) mix using an institutionalized 
process known as the Total Force Enterprise Review Process. This 
process includes representatives of all Air Force components (Regular 
Air Force, Air Force Reserve and Air National Guard) in an enterprise-
level appraisal of Air Force requirements and resources, which applies 
mission and organizational analysis to support senior leader decisions. 
Potential future Total Force mission contributions by each component 
are first analytically optimized with respect to five major factors: 1) 
total strategy-based war-fight and training demand, 2) required 
manpower, 3) projected equipment inventory, 4) cost, and 5) deployment 
policy. The resulting zero-sum AC/RC mix is further refined with Force 
Composition Analysis focused on discrete weapon systems and career 
fields.
    This refinement delivers insights regarding mission feasibility 
across a range of AC/RC mixes, enabling Air Force leadership to choose 
from several reasonable Force Mix Options within individual mission 
areas. The resulting senior leader decisions are then considered within 
the Air Force's resource allocation decision-making process, and put in 
a prioritized context using similar analysis of the appropriate AC/RC 
ratio for combat, mobility, ISR and all other Air Force mission areas.
    Mr. Forbes. For the FY14 Air Force budget development, is the Air 
Force using the same collaboration and coordination techniques that 
were used during the FY13 budget process as it relates to restricted 
information sharing and the use of non-disclosure agreements?
    General Miller. During the development of the FY13 budget proposal, 
the Air National Guard, Air Force Reserve, and Chief, National Guard 
Bureau, participated in all aspects of resource decision-making. For 
the FY14 budget development, the Air Force is operating under long-
standing DOD guidance for the Planning, Programming, Budgeting and 
Execution System, which keeps restricted and pre-decisional information 
protected, but allows coordination with properly cleared, responsible 
parties.
    Mr. Forbes. During the FY13 budget building process, and currently 
during the FY14 budget building process, how many Air Force, Air 
National Guard and Air Force Reserve personnel were required to sign 
non-disclosure agreements (NDAs), and which specific offices within 
each of those organizations were required to sign NDAs?
    General Miller. Those individuals who participated in the Air Force 
Corporate Structure (budget preparation and deliberation) process or 
required access to the Air Force budget information were required to 
sign non-disclosure agreements, and the number of non-disclosure 
agreements was not centrally tracked; no specific organizations were 
required to sign. The use of the non-disclosure agreements in the FY13 
budget process was in response to a number of factors unique to the 
circumstances. The Air Force coordinated fully with the Air National 
Guard, Air Force Reserve and Chief, National Guard Bureau. For the FY14 
budget development, the Air Force is operating under long-standing DOD 
guidance for the Planning, Programming, Budgeting and Execution System, 
which keeps restricted and pre-decisional information protected, but 
allows coordination with properly cleared, responsible parties.
    Mr. Forbes. What additional funds, if any, are needed in fiscal 
year 2013 and beyond to improve the equipment readiness of Air National 
Guard and Air Force Reserve Component units that do not currently meet 
standards?
    General Lowenberg. As part of the Total Air Force, the Air Reserve 
Components are supposed to be funded at the same readiness level as the 
regular Air Force. The same shortfalls in equipment readiness should 
therefore exist across all Air Force components. For the Air National 
Guard and Air Force Reserve, unmet equipment readiness needs have been 
communicated to Congress via the annual National Guard and Reserve 
Equipment Report. The current report identifies a $2.8B shortfall for 
the Air National Guard and a $2.2B shortfall for the Air Force Reserve.
    Additionally, $9.7B in Air Reserve Components modernization 
capabilities were validated by subject matter experts at the most 
recent annual Weapons and Tactics Conference forum. This forum 
identifies equipment requirements in an open and rigorous exchange 
among warfighters who are experts in their respective weapons systems. 
The capabilities requirements validated in this forum are translated 
into specific programs for which commercial or government off-the-shelf 
(GOTS) equipment is available and requires only non-developmental 
integration into a weapons system. The requirements validation process 
includes C2, cyber, intelligence surveillance and reconnaissance (ISR), 
training, and simulator systems as well as weapons delivery, airlift, 
and tanker platforms. These capabilities and associated programs are 
documented in the annual Weapons Systems Modernization Requirements 
Book.
    The National Guard and Reserves Equipment Account (NGREA) has been 
essential in maintaining the operational capabilities of both Air 
Reserve components.
    The Air National Guard also uniquely provides non-Federalized air 
reserve component forces for national defense and homeland defense 
missions. To identify requirements for these constitutionally unique 
missions, National Guard subject-matter experts from all 54 states, 
territories, and the District of Columbia enter into an equally open 
and rigorous analysis of mission requirements in an annual Joint 
Domestic Operations Equipment Requirements (JDOERS) conference.
    This year's Air and Army National Guard JDOERS conference involved 
more than 500 military and civilian subject matter experts from all 54 
states and territories, Federal Emergency Management Agency (FEMA) 
regions and Emergency Support Functions (ESFs), as well as Army 
National Guard (ARNG) and Air National Guard (ANG) Readiness Center 
staffs. The conference defined, validated and documented ANG, ARNG and 
joint capability shortfalls for domestic operations based on the vast 
pool of experience and boots-on-the-ground understanding of domestic 
missions at all levels--local, state, regional and multi-state. In the 
course of the conference, work groups addressed equipment requirements 
in all of the Emergency Support Functions (ESFs) in the National 
Response Framework (NRF).
    The JDOERs process, including the annual conference and its 2012 
DJOERS Equipment Requirements book, has catalogued domestic operations 
equipment shortfalls in each Emergency Support Function (ESF) totaling 
more than $486M for the Air National Guard.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. The House has made clear that they are uneasy with the 
FY13 Force Structure Adjustment reductions and SASC NDAA language 
requests a pause on USAF force structure changes until the proposed 
``commission'' submits its report to Congress on 3/31/2013. The SASC 
bill also ``strongly encourages'' the Secretary to suspend other, non-
aircraft force structure adjustments, but does not prohibit it.
    The non-iron changes were made to pay for the iron movement. If 
that iron movement is not happening, does Air Force plan to reevaluate 
the Force Structure Adjustments with regards to personel decreases such 
as those at the CRTCs and AOGs around the Nation?
    General Miller. The Air Force's current planning premise, given the 
timelines required for budget planning, is that the Fiscal Year 2013 
President's Budget and force structure changes from previous fiscal 
years will be approved. As it does every year, the Air Force will 
evaluate the impact of actions taken by the Congress as it formulates 
future plans and programs, including with regard to personnel changes. 
We anticipate making the necessary adjustments when we receive new 
guidance or enactment of the FY13 budget.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. While the other services are shifting resources to the 
Guard and Reserve in order to preserve capability at lower cost, the 
Air Force in its proposed force structure changes is actually shifting 
capability to the Active Component at the expense of the Guard and 
Reserve. Given the fact that General Dempsey has indicated we are going 
to be transitioning from a deployed force to a garrison force for the 
first time in over a decade, what is the justification to rebalance, 
particularly the tactical airlift forces, towards the Active Component?
    General Miller. The new DOD Strategic Guidance ``Sustaining US 
Global Leadership: Priorities For 21st Century Defense'' directs the 
services to build a force that will be smaller and leaner, flexible, 
ready, and technologically advanced. The Chairman's statement 
characterizes DOD's force in general, but the demand for USAF assets--
similar to the ten years of elevated-tempo air operations in Southeast 
Asia which followed Desert Storm in 1991--are highly unlikely to 
decrease as much or as fast as they will for the ground forces. To 
deliver the capabilities likely to be required under this guidance, and 
remain within funding constraints, the Air Force made difficult choices 
in all service core functions.
    With regard to the decision to rebalance the tactical airlift 
forces, Case 3 of the Mobility Capabilities and Requirements Study 
2016, previously conducted by OSD CAPE and USTRANSCOM, calls for 270 
tactical airlift support aircraft. This analysis closely mirrors the 
new strategic guidance. The reduced tactical airlift requirement 
permitted divestiture of 65 older C-130H aircraft. Previous reductions 
in force structure shifted the Total Force ratio significantly toward 
Reserve Component forces, and Air Force decisions in the FY13 
President's Budget request rebalanced that ratio to create a more 
sustainable force structure over the long term. Maintaining the 
appropriate mix of forces between the Active and Reserve Components is 
critical to sustaining Air Force capabilities for forward presence, 
rapid response, and high-rate rotational demands with a smaller overall 
force.
    Mrs. Roby. General Swartz recently stated that the Air Force has 
determined that they could not sustain further Active Component cuts 
without jeopardizing the collective ability of the total force to 
support our Nation's strategic interests. Since we are now out of Iraq 
and projected to reduce forces/remove forces from Afghanistan, what 
other conflicts or activities do you see on the horizon that will drive 
the Air Force to maintain the type of operational tempo we've seen, and 
that I may add has been successfully provided, by the current Active/
Reserve Component mix?
    General Miller. Despite the best analysis and projections of 
national security experts, the time and place of the next contingency 
are never certain and rarely what we expect. The 21st Century continues 
to be a period of extreme volatility due to the spread of advanced 
technologies, social change, and global economic stress. Facilitated by 
worldwide connectivity, capabilities that traditionally belonged 
exclusively to developed nations are now available to rising powers, 
rogue states, malicious groups, and even individuals with internet 
access--enabling those with ill intent to increasingly challenge our 
interests.
    Our force structure and Active to Reserve Component (AC/RC) ratios 
are not solely based on current or near-term operational conditions 
(e.g., reduction/removal of forces in Afghanistan), but primarily by 
future planning scenarios. The new Defense Strategic Guidance (DSG) and 
its defense planning scenarios create the future constructs in which 
our forces will be required to operate and perform. To that end, the 
evolving strategic environment, particularly in the Pacific and the 
Middle East, continues to affect the combatant commander ``demand 
signals'' for Air Force capabilities. By all indications, the demands 
on the Air Force--as a smaller, ready force provider--will remain 
constant or increase, not decrease, over the next decade.
    On top of previous years' force reductions, the Air Force's FY13 
President's Budget (FY13 PB) request made hard strategic choices, 
aligned with the DSG, that will yield the Air Force's smallest total 
aircraft inventory in our history, and provide the minimum required 
force capability and capacity to meet the DSG's force planning 
construct and scenarios. The analytical process used to derive the 
proposed FY13 PB force levels focused on a multitude of factors, 
including combatant commander requirements for surge and post-surge 
(rotational forces), weapons system inventories, manpower, force policy 
such as deployment-to-dwell ratios, and cost. A constant or increased 
``demand signal'' combined with a fiscally reduced Air Force force 
structure necessitates the proposed changes to the current AC/RC mix.
    Mrs. Roby. The Guard and Reserve have been a particularly cost-
effective way to provide capability. In a period where cost is and will 
continue to be a major factor, why would the Air Force reduce some of 
its most cost-effective force providers, and place that capability in 
the more expensive Active Component?
    General Miller. As the Air Force was driven to consider reductions 
in FY13, we carefully considered the demand on, and capabilities/
capacity of the Active and Reserve Components and made choices that 
ensured the Total Force could fulfill the Air Force's surge 
requirements as directed by the force sizing construct of the new 
strategic guidance. We maintained the balance between Active and 
Reserve Components required to fulfill continuing rotational 
requirements at deployment rates and personnel tempos that are 
sustainable for both the Active and Reserve Components; made sure the 
Active Component retained the recruiting, training, and operational 
seasoning base required to sustain the Active Air Force, Air National 
Guard, and Air Force Reserve into the future; and ensured the Reserve 
Component remains relevant and engaged in both enduring and evolving 
missions.
    Previous reductions in force structure shifted the Total Force 
ratio toward Reserve Component forces, and Air Force decisions in the 
FY13 President's Budget request balanced reductions across the AF to 
create a more sustainable force structure over the long term. 
Maintaining the appropriate mix of forces between the Active and 
Reserve Components is critical to sustaining Air Force capabilities for 
forward presence, rapid response, and high-rate rotational demands with 
a smaller overall force.
    Mrs. Roby. With the recent support of the Council of Governors, the 
Guard is supposed to get 24 C-130s added back. Where will those 
aircraft come from and where will they be assigned?
    General Miller. No final decisions have been made on the 
disposition of these 24 aircraft. Based on the new strategic guidance 
and what and where we believe future demand will be we are seeking a 
Total Force answer to the stationing of these aircraft. As always the 
Air Reserve Components, the Chief, National Guard Bureau, and the 
Combatant Commands will have input as to their priorities and 
requirements that may affect the final decision.
    Mrs. Roby. Previously it was determined associations would work 
best on Active Component bases, where service members would have access 
to needed services like personnel, finance, base housing, etc. Yet many 
of the new associations proposed in the force structure announcement 
will be at Guard/Reserve bases, where those services are lacking, some 
without any nearby bases. Why are you going forward with associations 
at those locations and not at Maxwell?
    General Miller. The Air Force routinely reevaluates and refines its 
Active Component/Reserve Component (AC/RC) mix and its associations 
using an institutionalized process known as the Total Force Enterprise 
Review Process. This process includes representatives of all Air Force 
components (Regular Air Force, Air Force Reserve and Air National 
Guard) in an enterprise-level appraisal of Air Force requirements and 
resources, which applies mission and organizational analysis to support 
senior leader decisions. As part of this process, the major commands 
sponsor association constructs which are established after careful Air 
Force Corporate Structure evaluation and funding. Associations that 
assign full-time Regular Air Force manpower to Guard/Reserve bases 
capitalize on the availability of aircraft and other Guard/Reserve 
resources. Where these associations are established without a nearby 
active component base, it is because the cost/benefit analysis has 
shown that the mission benefits outweigh the lack of traditional 
services.
    Mrs. Roby. The Air Force is making the assumption that the ops 
tempo for C-130s will remain high as a justification for rebalancing 
towards a more Active Duty centered force. Yet the Chairman of the 
Joint Chiefs and the other service chiefs are discussing how to adjust 
to being a force in-garrison as we're out of Iraq and expect activity 
to come down in Afghanistan. What factors/actions are behind the 
assumptions that particularly the C-130 ops tempo will remain high/
critically high?
    General Miller. Our aircraft force structure and active duty to Air 
Reserve Component (ARC) aircraft ratios are not based on current or 
near-term operational conditions (e.g., decrease in activity following 
the end of operations in Afghanistan). Instead, they are driven 
primarily by future planning scenarios. The new Defense Strategic 
Guidance and related defense planning scenarios create the future 
employment constructs in which our forces will be expected to operate 
and perform. They shape the Air Force force structure and corresponding 
ratios between active duty and ARC. These scenarios allow the 
Department to determine the capabilities and quantities of aircraft 
necessary to support combatant commanders in these future operations. 
The C-130 intra-theater aircraft requirements and the ratio of these 
aircraft are derived, through analysis of these scenarios, to provide 
the necessary force structure for future operations. In addition, while 
the Chairman's remarks describe the overall trend for DOD's forces, the 
last several decades of Air Force history suggest that meeting 
combatant commander and other demands for airpower will remain 
significant for the USAF.

                                  <all>

</pre></body></html>
